<html>
<title> - OVERSIGHT HEARING ON THE VARIANCES IN DISABILITY COMPENSATION CLAIMS DECISIONS MADE BY VA REGIONAL OFFICES; THE POST-TRAUMATIC STRESS DISORDER CLAIMS REVIEW; AND UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT DECISION ALLEN V. PRINCIPI Thursday, October 20, 2005 U.S. HOUSE OF REPRESENTATIVES, SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Subcommittee met, pursuant to call, at 10:40 a.m., in Room 340, Cannon House Office Building, Hon. Jeb Bradley [Vice Chairman of the Subcommittee] presiding. Present: Representatives Miller, Bradley, Berkley, Udall, Evans, and Brown-Waite. MR. BRADLEY. [Presiding] Good morning. The hearing will come to order. Congressman Miller will be here shortly. He has asked for me to pitch in for him. I am going to read his opening statement. Today we are receiving testimony on several issues: number one, variances in claims decisions throughout the Veterans Benefits Administration's regional offices; two, the ongoing review of certain Post-Traumatic Stress Disorder claims; and, three, a 2001 U.S. Court of Federal Appeals decision, Allen v. Principi, which clarified that the VA may pay compensation for an alcohol or drug abuse condition when it is secondary to a primary service-connected condition such as, in Mr. Allen's case, PTSD. In late 2004, the Chicago Sun Times' ran a series of articles that focused on the compensation rates of Illinois veterans. As a result, then Secretary Principi asked the VA Inspector General to conduct a review of compensation payments. The IG reported its findings in May 2005. The IG cited several factors to account for variances in annual disability compensation payments, some of which VA has no control over and others in which VA has some control. During the IG's review of 2,100 PTSD claims, it was found that the total number of veterans receiving disability compensation between 1999 and 2004 grew by a little more than 12 percent. However, PTSD claims increased by more than 80 percent. Likewise, PTSD compensation payments increased almost 149 percent while compensation for all other disabilities increased by only 41.7 percent. It concerns me that the IG determined that Veterans Benefits Administration procedures were not always followed in processing PTSD claims, resulting in error rates ranging from 11 to 41 percent. Due to the nature of certain disabilities, the adjudication of a claim requires the use of judgment; therefore, inherently, there will be variations in outcomes. I would expect, however, that the VA can mitigate and control for variances in decisions by ensuring that regional offices follow standardized adjudication policies and by developing methods for ensuring consistency. I look forward to the testimony of Ms. Bascetta, the GAO witness, and Dr. Brown of the Compensation and Pension Exam Program in this regard. Following an IG recommendation, VBA is currently examining the 2,100 PTSD claims that the IG reviewed. I understand there is some concern within the veterans' community that this review may be adding to veterans' stresses. At a briefing for the House and Senate committee staff earlier this month, Admiral Cooper, Under Secretary for Benefits, gave every assurance that benefits will be fully paid until a final decision is rendered - a veteran will not lose appeal rights - and that if a grant is overturned, the veteran will not have to repay past benefits. To date, the majority of the original 2,100 cases under review have been successfully closed without a need for further action. The initial grant was correct. It is my hope that VBA in conjunction with the Veterans Health Administration will educate veterans on the process as necessary. It is important not to overlook the fact that this review will also help VBA identify weaknesses and improve the quality of the claims adjudication process. [The statement of Mr. Bradley appears on p. 44] MR. BRADLEY. At this time, I would like to recognize the Ranking Member for her opening remarks. MS. BERKLEY. Thank you, Mr. Bradley. And please thank Chairman Miller for holding this hearing. I think it is critically important that we explore this issue from the perspective of severely disabled veterans who are being put at risk by a possibly illegal review of post-traumatic stress disorder claims. This review and the Inspector General's claim that billions of dollars can be saved by terminating benefits to severely disabled veterans places the health and lives of untold veterans and their families at risk. The Bush Administration says it seeks only to improve compensation and pension claims processing. However, the VBA has embarked upon a course which may very well lead to increased suicides, homicides, and violent behavior by veterans whose PTSD symptoms are so severe that they are unable to work or function in society. This review is causing some veterans to revisit their traumatic experiences and increase their psychiatric symptoms. Mental health professionals, treating psychiatrists, as well as veterans' advocates say this is simply, dare I say, madness. As Secretary Garcia states in his written testimony, an attack on one veteran is an attack on all of them. Even those who are unlikely to have benefits terminated are feeling under attack by a report which appears to recommend cutting severely mentally ill veterans from VA compensation rolls. How many veterans' suicide will it take to reverse this course? While many of our nation's veterans with severe PTSD fear the loss of their disability benefits and their VA health care, I fear the loss of their lives. Many agree with PVA's testimony that will appear later, written testimony, that the review which is underway may well be illegal. A court may ultimately find this to be so. Such a finding would be little comfort, however, to families who have already lost a spouse, father, grandfather, or child to suicide as a result of the stress this proposed review is placing upon severely disabled veterans. Does VBA really believe that it can meet the stringent requirements for clear and unmistakable error in the decisions of veterans whose claims are being reviewed? How can they do that? Does the IG have any evidence to support the suggestion that all of the claims which reportedly lack adequate stressor verification could be terminated under existing statutes? How can any review which ignored and continues to ignore the thousands of veterans who have had PTSD claims denied with little or no attempt to adequately develop their claims be viewed with any credibility by the veterans' community? The GAO recently found that many veterans' claims were rated without adequate medical examinations which may have entitled them to a higher rating and benefit. Will VA be contacting those veterans that were denied benefits and scheduling a new medical examination? Are we jeopardizing the lives and health of America's severely disabled veterans so that the bureaucracy will have a complete paper file? Does the government have a moral and ethical responsibility to mitigate the danger to the lives and health of veterans occasioned by this review? I hope that the witnesses will be able to answer my questions. And before I concluded, Mr. Bradley, as many people know, and I say this often enough, in Las Vegas, Southern Nevada has the fastest-growing veterans' population in the United States. We have veterans from World War II, Korea, Vietnam, the Gulf War, and now we have many returning veterans from Iraq and Afghanistan. I have witnessed with my own eyes people in the Vietnam era, that was my era, that came back seriously mentally damaged. And this nation did not do what I think was our moral responsibility to help these kids that came back, while I was sitting in a college classroom, severely mentally disabled from the experiences they had in their theater of war. Now, I did not appreciate it when I was in college. I appreciate it now when I am sitting here next to you in Congress. And under my watch, I would never forgive myself if we were to implement actions that would create further mental harm to these people who have sacrificed so much in the prime of their lives, who have had their lives completely altered on behalf of this nation. And I think we have a great responsibility to these people. And I want to hear what is going on, but I cannot imagine systematically reviewing 100 percent PTSD victims when I believe there are so many more out there that need the additional help and need to be taken care of rather than taking away benefits, putting these people in harm's way, sacrificing their families, and ultimately this nation. And I thank you very much. MR. BRADLEY. Thank you, Ms. Berkley. [The Statement of Ms. Berkley appear on p. 46] MR. BRADLEY. Are there any other members who have opening statements? Mr. Udall. MR. UDALL. Thank you, Mr. Chairman. Mr. Chairman, I would like to recognize and thank New Mexico Veterans' Secretary John Garcia for testifying today. John is going to appear on Panel Number II. We in New Mexico know Secretary Garcia well. We know his dedication and loyalty to veterans. It is not uncommon for a veteran to walk into his office and to speak directly with him about concerns and issues of importance. And I know that the Secretary is as concerned and angry as I am with the manner in which the VA has proceeded on this PTSD matter. It seems that time and time again we hear the larger facts about PTSD: How it affects 11.5 percent of all veterans; how nearly nine out of ten veterans with PTSD demonstrate signs of other disorders, including depression, alcohol and substance abuse, or anxiety; how the number of veterans diagnosed with PTSD has risen while the number of services being offered by the VA has dropped; how the stigma of PTSD is still prevalent throughout the military and prevents many veterans from seeing care until it may be too late. However, even with all these facts and figures, the individual stories of struggle are sometimes lost, and PTSD has become simply another medical term, another column in the books. And, unfortunately, this became the perspective, I think, of the VA. In August, it was immediately clear that the VA's review of 72,000 PTSD cases meant something different to them than it did to the veterans suffering from PTSD. To the VA, it was a process for seeking out incomplete cases and finding voids in paperwork that needed to be filled. The IG report that catalyzed the review included charts and graphs and made suggestions for action. To veterans, though, the announcement that their case might be reviewed was not seen as simply another bureaucratic process. It was for many a jolting realization that the day-to-day struggle they endure was being questioned and that their quest for help to deal with this struggle needed external validation. For those who live with PTSD, the review did not mean a paperwork review as much as it meant a personal attack on what is already a sensitive issue. Last week, a veteran in my district took his life after dealing with PTSD for years and years. He can certainly be perceived as one statistic within the larger, tragic figure of those veterans who contemplate or act on suicidal thoughts. But he can also be seen as he should be, as a Vietnam vet decorated with the Purple Heart and other commendations. He was a soldier who fought bravely and honorably for his country. Involved in local veterans' organizations, he helped out at events and with other veterans and all the while he struggled to deal with PTSD. Even though his case was well-documented and he was in no danger of finding his compensation or medical assistance benefits revoked, he was greatly shaken by the announcement of the VA review and frequently inquired whether he would be losing the support he had received. He believed, as so many veterans do, that he was being forced to prove himself yet again. It is that belief that makes veterans so angry and so frustrated with this process. I believe the VA's intentions to bring clarity and accountability to PTSD cases were not in any way meant to harm our veterans. But I believe the manner in which they proceeded with the review, without any input from mental health professionals concerning the risk of harm to veterans with severe psychiatric symptoms, has done far more harm than good. It is important that we compile facts and figures and that we be concerned with the larger picture. It is more important that we not forget veterans who have borne the battle and now struggle with PTSD, and how our actions affect then. I have called and will continue to call for a halt to the review. The VA must reevaluate the process it is using in this review and must take into account how it is affecting veterans. It is better that we stop this review before more lives are lost rather than continue with troublesome and tragic consequences. Again, Secretary Garcia, thank you for your presence. We look forward to your testimony today on Panel II. And I thank you for your tireless work on behalf of New Mexico's veterans. Thank you, Mr. Chairman. Look forward to our witnesses today. MR. BRADLEY. Thank you, Mr. Udall. [The statement of Mr. Udall appears on p. 50] MR. BRADLEY. Mr. Evans. MR. EVANS. Thank you, Mr. Chairman. I would like to thank the Ranking Member, Ms. Berkley. I requested a review of VA practices which have resulted in low benefits for service-disabled veterans in Illinois and throughout the nation. We certainly did not expect the lop-sided IG review that we received. My staff reviewed PTSD claims in Chicago. These are some of the veterans whose claims were denied: a World War II veteran with a Combat Infantry Badge, a Vietnam veteran who participated in the 1969 Tet Counter-offensive, a peacetime veteran who witnessed the extremely traumatic death of a co-worker, and an Iraq veteran with PTSD noted on compensation and pension examination form. The VA IG review completely ignored such claims. I hope today's hearing will lead to the end of the VA's destructive action against veterans with severe PTSD. The veterans' advocates are right. We must stop this process before any more veterans take or lose their lives. Mr. Chairman, I ask that a letter that Ranking Member Akaka and I sent to Secretary Nicholson concerning this matter be included in the record. I want to thank you and your staff. And I have this statement for the record. Thank you. MR. BRADLEY. So ordered. [The statement of Mr. Evans appears on p. 57] [The attachment appears on p. 151] MR. BRADLEY. Will panel one please come to the table. Mr. Jon Wooditch is the Acting Inspector General, Department of Veterans Affairs. He is accompanied by Mr. Michael Staley, the Assistant Inspector General for Auditing. Next, Ms. Cindy Bascetta, the Director of Education, Workforce, and Income Security Issues represents the Government Accountability Office. Welcome to you all. Your full statements will be included in the printed record of the hearing and we will hold our questions until each of you has testified. Please proceed. STATEMENTS OF JON A. WOODITCH, ACTING INSPECTOR GENERAL, DEPARTMENT OF VETERANS AFFAIRS, OFFICE OF THE INSPECTOR GENERAL; ACCOMPANIED BY MICHAEL L. STALEY, ASSISTANT INSPECTOR GENERAL FOR AUDITING, DEPARTMENT OF VETERANS AFFAIRS, OFFICE OF THE INSPECTOR GENERAL; CYNTHIA BASCETTA, DIRECTOR, EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE STATEMENT OF JON A. WOODITCH MR. WOODITCH. Thank you. Mr. Chairman and other distinguished members of the Subcommittee, I am pleased to be here today to address the Office of Inspector General report, Review of State Variances in VA Disability Compensation Payments. I am pleased to be joined by Mike Staley, Assistant Inspector General for Audit. Last December, the VA Secretary asked the IG to conduct this review in response to concerns raised by several Members of Congress over the wide variance in average annual disability compensation payments by state. For Fiscal Year 2004, veterans in New Mexico received over $5,000 more per year than veterans in Illinois. To determine the cause of the variance, we analyzed six years worth of benefit claims' data, surveyed over 1,900 rating specialists, examined 2,100 claims' folders, and reviewed medical examination reports. Our review identified a number of factors that influenced the variance. Two key reasons highlighted in the report are veteran demographic factors and benefit rating decisions. Demographic factors are variables beyond VA control. For example, Vietnam veterans receive over $2,300 more than the next highest period of service. Enlisted personnel receive more than officers and military retirees receive more than nonretirees. Our review demonstrated that there was a direct correlation between these factors and those states with the highest average annual payments. This supports the position that some part of the variance is predictable and nonproblematic. Conversely, factors such as benefit rating processes over which the VA has direct influence are problematic in that they are not always consistently applied nationwide. Our analysis of rating decisions shows that for disabilities that can be independently validated on physical measurements, such as amputations, ratings were consistent. However, for other disabilities, such as mental disorders, much of the information needed to make a rating decision is not physically apparent. As such, these cases are more difficult to develop and document and are inherently more susceptible to variations in interpretation and judgment. This subjectivity leads to inconsistency in rating determinations. We selected the mental disorder system for further analysis because it had the highest overall average disability rating nationwide and it included PTSD, which is the fastest-growing condition. To illustrate, from fiscal years 1999 to 2004, the number of PTSD cases grew by 80 percent and PTSD payments increased from $1.7 to $4.3 million. There was also a dramatic rise in the number of PTSD cases rated 100 percent. In fact, data shows that differences in the number of 100 percent PTSD cases by state accounted for 34 percent of the variance. To understand why this variance may be occurring, we reviewed 2,100 PTSD cases at seven VBA regional offices. We found that 25 percent of the 2,100 cases needed further development to support the claimed stressor in order to verify that the PTSD was caused by an event related to military service. The 25 percent error rate is not an indicator of fraud. It reflects noncompliance with VBA regulations concerning required documentation to develop and support rating decisions. These requirements are essentially internal controls designed to ensure veterans receive everything they are entitled to under the law and to serve as a basis for denying claims when the evidence does not exist. To address this issue, we recommended that VBA do a review of all PTSD cases rated 100 percent. The intent of this recommendation is to ensure the VBA rules and regulations are fully complied with, that the processes for case development are consistently applied nationwide, and to ensure that benefits are being paid properly. In closing, I would like to add that the variances by state have existed for decades and that the factors that influence these payments are complex and intertwined. Yet, there are opportunities to improve the consistency of rating decisions. The impact of underlying factors such as medical examination reports that do not consistently provide sufficient data for rating purposes, incomplete case development, and a rating schedule that is subject to different interpretations will have to be fully studied and understood if the VBA is to be successful in detecting, correcting, and preventing unacceptable payment patterns. That concludes my statement. Thank you again, Chairman Bradley, and those members of the Subcommittee for this opportunity. I welcome any questions you may have. [The statement of Mr. Wooditch appears on p. 58] MR. BRADLEY. Ms. Bascetta. STATEMENT OF CYNTHIA A. BASCETTA MS. BASCETTA. Good morning, Mr. Chairman, and other members of the Subcommittee. Thank you for inviting us to testify today on the consistency of decisions made by VA on veterans' claims for disability compensation. Ensuring that disability decisions are consistent across the nation is vital to the integrity of the VA Disability Programs which GAO designated as high risk in January 2003. As you requested, my comments today are based on our two most recent reports on decisional consistency. Our November 2004 report concluded that VA still does not systematically assess consistency across its regional offices and the report we issued last week shows one important way for VA to improve consistency involving joint and spine impairments. We made recommendations in both reports that underscore the need for VA to routinely monitor consistency to ensure that veterans get the benefits they deserve for disabilities connected to their military service. Building on previous work, we reported last November that the need for adjudicator judgment results in inherent variation in the decision-making process. Examples where judgment is required include claims with conflicting medical opinions and claims for which disability standards are not entirely objective, such as those involving mental impairments or pain. In these cases, different adjudicators could reach different decisions about the severity of a veteran's disability depending on how they weigh various pieces of evidence. But it is still reasonable to expect that the extent of variation would be confined within an acceptable range as agreed to by knowledgeable professionals. Yet, we have reported and you have just heard the IG comment on why the state-to-state variations and average compensation payments per disabled veteran raise questions about consistency. Because of the need to reduce the risk of decisional inconsistency, we recommended that the Secretary develop a systematic, data-driven approach to identifying potential inconsistencies among VA's 57 regional offices and then to study those inconsistencies in detail with regard not only to awards but denial of benefits for specific impairments. VA concurred with our recommendation, but has not yet implemented it. The report we issued last week assessed VA's progress in improving consistency of the quality of medical information provided by VA physicians to regional offices for their use in deciding joint and spine claims. As you know, in the DeLuca case, the court held that VA claims adjudicators must consider whether range of motion is further limited by factors such as pain and fatigue during flare-ups or following the repetitive use of the impaired joint or spine. VA itself reported in a baseline study conducted in 2002 that fully 61 percent of exam reports on joint and spine impairments did not provide sufficient information to comply with DeLuca. We found that VA has made substantial progress since its 2002 study, decreasing the number of deficient exams from 61 to 22 percent. Three factors contributed to this progress: Creating the Compensation and Pension Exam Project Office to improve the disability exam process; providing extensive training to both VHA and VBA personnel; and establishing a performance standard for the quality of medical center exam reports. Nevertheless, more than one in five joint and spine exam reports still do not comply with DeLuca. And more improvement is needed to reduce the wide variations among VA's health care networks where deficient DeLuca exams range from eight percent in the best networks to forty-three percent in the worst. As a result, VA cannot reasonably assure that these veterans, no matter where they live, receive fair and equitable decisions on their disability claims. To continue the progress made so far, we recommended that VA use a strategy focused on improvement efforts within its health care networks, an additional performance measurement. VA concurred in principle with this approach. In conclusion, it is incumbent on VA to implement all of our recommendations relating to consistency. Until assessments of consistency become a routine part of VA's oversight decisions made by its regional offices, veterans may not consistently get the benefits they deserve for disabilities connected to their service, and taxpayers may lack confidence in the effectiveness and fairness of VA's disability program. While it would be unreasonable to expect that no decision-making variations would occur, we continue to urge VA to measure and limit inconsistency through systematic study, targeted improvements, and concerted performance measurement. And I would be happy to answer any questions you might have. MR. BRADLEY. Thank you. [The statement of Ms. Bascetta appears on p. 66] MR. BRADLEY. Mr. Staley, do you have an opening statement? MR. STALEY. No, sir. MR. BRADLEY. In that case, we will go right to questions. Mr. Wooditch, you indicate that one of the factors in the variances of decisions is insufficient medical exam reports. What is your sense of the working relationship between VBA and VHA? Are there clear guidelines between the two on what is needed to adjudicate a claim? MR. WOODITCH. I believe that VHA and VBA have made a lot of progress in the last few years to standardize templates in order to do medical examinations for rating purposes. As our report points out, very few people have access to these templates, but I know they are working together to improve the omission of data that has existed in past examination reports that is needed for rating purposes. And I think that they are making progress. MR. MILLER. [Presiding] I apologize for being late. We have been at a hurricane briefing for the State of Florida. Ms. Berkley, would you like to go ahead and ask your questions. MS. BERKLEY. Thank you, Mr. Chairman. I spent a lot of time with my veterans in Las Vegas, one, because I want to and, two, because they trust me and because of my position here on this Committee. They have grown to know that they can trust me and that I have their best interest at heart at all times. I meet with my disabled veterans a lot and I have had occasion to meet with those that have really suffered severe mental illness because of their service to this country. I admit one of the first veteran's cases that we took when I first came to Congress was at a town hall meeting where a Vietnam vet came to me with a stack of correspondence he had had with my predecessors who kept kicking back to him the same letters that we were getting from the VA that he was only 50 percent disabled as opposed to 100 percent disabled. And when he came to see me, it was very apparent within the first five minutes that this guy really had a serious problem and that we were doing a tremendous disservice to him because we never reviewed his case. We never looked at his case. We just kicked back the same stuff that was initially put in his file and nobody took the time to look behind that and see what was going on with this person. And after a whole lot of effort, we ended up ensuring that he was 100 percent disabled and I think that should have been the appropriate diagnosis from the beginning. And that was the first of many veterans that I have tried to help when it came to their rating for disability, especially when it comes to their mental health. This is an area that people do not like to acknowledge. It is an area that is subjective in many ways. I mean, you do not see an open wound. You do not see blood. You do not see broke bones. But you have a broken person in front of you. So I think it is a little more difficult to adjudicate. I do not know how much time you have spent with veterans, especially those with PTSD, but I have spent a considerable time. Did the IG expect that the VA would terminate benefits of veterans whose claims were reviewed? I mean, walk me through this. When we do this review of the 72,000 veterans that are 100 percent disabled, how do we do this and what do we expect from the veterans? And did we expect to terminate their benefits that they were accustomed to receiving? What was the thinking? MR. WOODITCH. The review started with trying to understand why the variance existed. We determined that 100 percent PTSD ratings was a primary contributor to that. When we looked behind it, we found what we called a 25 percent error rate in 2,100 cases. As I mentioned in my opening statement, the error rate is not an indicator of fraud. It is just an indicator of VBA not complying with its rules and regulations. The basis in doing the 72,000 review is to find out what the magnitude of the total population is with respect to this error rate. MS. BERKLEY. Are you going back and looking at cases where they were denied or people that have been adjudged 50 percent and maybe they are entitled to 100 percent? MR. WOODITCH. We did not look at denials. Denials did not contribute to the average payments in the state, so denial was not an issue for us. We just looked at approved claims. We did not look at the rating level to see whether or not it was an accurate rating level. All we looked at was whether or not the documentation that was required by law was, in fact, in the claims' folder to support the rating. MS. BERKLEY. And under what legal authority did we do that? MR. WOODITCH. The IG, under the "IG Act'' authority, has the mandate to look at compliance with rules and regulations. So it was a compliance issue. MS. BERKLEY. Well, according to 38 USCS Section 511, it says that the Secretary shall decide all questions of law and fact and that the Secretary's decision shall be final and conclusive except with a few exceptions. But I do not see how this fits into any of the exceptions. So how are we going about it? After these cases are adjudged and they are final, how do we go back and add additional stress to these veterans who are barely getting by on a day-to-day basis and tell them that they may not be entitled to this? How do you do that? Why would we be doing that? MR. WOODITCH. To go back and answer one of your earlier questions, our intent was never to terminate benefits. Our intent was to work with the veterans and their representatives to review unit records and other sources of information in order to come up with the documentation that was required by law in order to justify their ratings. MS. BERKLEY. Now, people with PTSD have high rates of suicide. We just heard of a tragic case in New Mexico. In recommending the review of finally-decided claims, did the IG take into account the risk of potential suicide or other violent behavior by asking the veterans to revisit their stressors? MR. WOODITCH. First of all, I am sorry to hear about that. It is a tragic incident. I think the problem here is information control. Our recommendation to review 72,000 cases was not intended to go out to all veterans and say we are going to review 72,000 cases. A lot of the review work can be done by looking at data systems or records within VA. In doing so, many of those cases could be eliminated from review. It is unfortunate that that impression is out there, this misinformation needs to be dealt with. MS. BERKLEY. Rather than go back and have these veterans who have already suffered serious stress because of their service in the military, why not develop the appropriate indicators for future cases? It would seem to me that the VA has the issue, not the veterans who have already been adjudicated to have PTSD at a 100 percent level. I mean, does it matter that they would be 95 or 90 percent? Does it save this country that much money that we would create additional burdens on these people who have already suffered so much? MR. WOODITCH. I agree with what you are saying. I think maybe if you just reviewed the 2,100 cases that VBA is doing, it would help to identify parameters for how we look at future cases. I think that the issue is worthy of discussion. we need to make a decision what we are going to do. MS. BERKLEY. And I would join with my colleagues in New Mexico and call for a halt to this. I think you have enough information and we have caused enough anguish. Thank you very much. MR. WOODITCH. Thank you. MR. MILLER. Mr. Bradley. MR. BRADLEY. Thank you very much, Mr. Miller. Ms. Bascetta, how do your findings regarding inconsistencies with VBA's decisions compare to the Social Security Disability system? MS. BASCETTA. We have spent an equal amount of time looking at both systems and in both cases, we find that neither SSA nor VA has tackled the consistency problem adequately in our view. In the Social Security case, it is a little bit different because their focus has been on looking at inconsistency between their appellate and their initial level. But we find in earlier work that they also among their disability determination services experience considerable inconsistency at the initial award level. The bottom line is that both agencies tell us that they are doing things to improve consistency such as improving training or tightening guidance to their offices. But neither one of them has actually measured how consistent their decisions are. And until they do that, we believe that program integrity just is not where it should be. MR. BRADLEY. You indicate that in applying the DeLuca criteria there have been substantial improvements in the joint and spine medical examination reports. Do you have recommendations as to how similar improvements can occur in PTSD exams? MS. BASCETTA. We actually looked at the CPEP report because in the DeLuca case, what the CPEP report shows is that the quality of medical exams certainly is an input that could be contributing to inconsistency. Actually, in the PTSD case, the data from CPEP show that they are doing pretty well in that domain with a couple of exceptions. At the initial review level, 25 percent of exams had problems in assessing the DSM-IV criteria and at the subsequent review level, almost two-thirds were inadequate with regard to an assessment of remission or readjustment capacity. So there is certainly something to look at in the medical exam area. But overall in that area, they were at 89 and 92 percent adequacy. So we think that to the extent that there is inconsistency in the PTSD decisions, something else, some other root cause must be driving it. So we go back to our broader recommendation and suggest that VA take a look at both awards and denials to find out where adjudicators may be weighing information differently or using different factors in ways that would create inconsistent outcomes. And perhaps the use of performance measures or other impairment-specific strategies would be helpful in eliminating or reducing the inconsistency. MR. BRADLEY. Thank you very much. MR. MILLER. Mr. Udall. MR. UDALL. Thank you, Chairman Miller. I'm trying to understand, Mr. Wooditch, first of all, what was your motivation for looking at PTSD and stressors? Was there some indication that came to you that there was some problem here or was this just something that was dreamed up in your shop? I mean, did somebody come forward and say we have a serious problem with the way the VA is doing this and that's what initiated it or was it an internal issue with your operation? MR. WOODITCH. It was an internal issue with the IG. We reviewed data from the 15 major body systems that disability ratings occur in. And as I mentioned earlier, we determined that in the mental disorder system</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT HEARING ON THE VARIANCES IN DISABILITY COMPENSATION CLAIMS DECISIONS 
MADE BY VA REGIONAL OFFICES; THE POST-TRAUMATIC STRESS DISORDER CLAIMS REVIEW; 
AND UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT DECISION ALLEN V. 
PRINCIPI

Thursday, October 20, 2005

U.S. HOUSE OF REPRESENTATIVES,
SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS,
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.
	The Subcommittee met, pursuant to call, at 10:40 a.m., in Room 340, Cannon 
House Office Building, Hon. Jeb Bradley [Vice Chairman of the Subcommittee] 
presiding.
 
	Present:  Representatives Miller, Bradley, Berkley, Udall, Evans, and 
Brown-Waite.
 
	MR. BRADLEY.  [Presiding]  Good morning.  The hearing will come to order.
	Congressman Miller will be here shortly.  He has asked for me to pitch in 
for him.  I am going to read his opening statement.
	Today we are receiving testimony on several issues:  number one, variances 
in claims decisions throughout the Veterans Benefits Administration's regional 
offices; two, the ongoing review of certain Post-Traumatic Stress Disorder 
claims; and, three, a 2001 U.S. Court of Federal Appeals decision, Allen v. 
Principi, which clarified that the VA may pay compensation for an alcohol or 
drug abuse condition when it is secondary to a primary service-connected 
condition such as, in Mr. Allen's case, PTSD.
	In late 2004, the Chicago Sun Times' ran a series of articles that focused 
on the compensation rates of Illinois veterans.  As a result, then Secretary 
Principi asked the VA Inspector General to conduct a review of compensation 
payments.
	The IG reported its findings in May 2005.  The IG cited several factors to 
account for variances in annual disability compensation payments, some of which 
VA has no control over and others in which VA has some control.
	During the IG's review of 2,100 PTSD claims, it was found that the total 
number of veterans receiving disability compensation between 1999 and 2004 grew 
by a little more than 12 percent.  However, PTSD claims increased by more than 
80 percent.  Likewise, PTSD compensation payments increased almost 149 percent 
while compensation for all other disabilities increased by only 41.7 percent.
	It concerns me that the IG determined that Veterans Benefits 
Administration procedures were not always followed in processing PTSD claims, 
resulting in error rates ranging from 11 to 41 percent.
	Due to the nature of certain disabilities, the adjudication of a claim 
requires the use of judgment; therefore, inherently, there will be variations in 
outcomes.  I would expect, however, that the VA can mitigate and control for 
variances in decisions by ensuring that regional offices follow standardized 
adjudication policies and by developing methods for ensuring consistency.
	I look forward to the testimony of Ms. Bascetta, the GAO witness, and Dr. 
Brown of the Compensation and Pension Exam Program in this regard.
	Following an IG recommendation, VBA is currently examining the 2,100 PTSD 
claims that the IG reviewed.  I understand there is some concern within the 
veterans' community that this review may be adding to veterans' stresses.
	At a briefing for the House and Senate committee staff earlier this month, 
Admiral Cooper, Under Secretary for Benefits, gave every assurance that benefits 
will be fully paid until a final decision is rendered - a veteran will not lose 
appeal rights - and that if a grant is overturned, the veteran will not have to 
repay past benefits.
	To date, the majority of the original 2,100 cases under review have been 
successfully closed without a need for further action.  The initial grant was 
correct.  It is my hope that VBA in conjunction with the Veterans Health 
Administration will educate veterans on the process as necessary.
	It is important not to overlook the fact that this review will also help 
VBA identify weaknesses and improve the quality of the claims adjudication 
process.
	[The statement of Mr. Bradley appears on p. 44]
 
	MR. BRADLEY.  At this time, I would like to recognize the Ranking Member 
for her opening remarks.
	MS. BERKLEY.  Thank you, Mr. Bradley.  And please thank Chairman Miller 
for holding this hearing.
	I think it is critically important that we explore this issue from the 
perspective of severely disabled veterans who are being put at risk by a 
possibly illegal review of post-traumatic stress disorder claims.
	This review and the Inspector General's claim that billions of dollars can 
be saved by terminating benefits to severely disabled veterans places the health 
and lives of untold veterans and their families at risk.
	The Bush Administration says it seeks only to improve compensation and 
pension claims processing.  However, the VBA has embarked upon a course which 
may very well lead to increased suicides, homicides, and violent behavior by 
veterans whose PTSD symptoms are so severe that they are unable to work or 
function in society.
	This review is causing some veterans to revisit their traumatic 
experiences and increase their psychiatric symptoms.  Mental health 
professionals, treating psychiatrists, as well as veterans' advocates say this 
is simply, dare I say, madness.
	As Secretary Garcia states in his written testimony, an attack on one 
veteran is an attack on all of them.  Even those who are unlikely to have 
benefits terminated are feeling under attack by a report which appears to 
recommend cutting severely mentally ill veterans from VA compensation rolls.  
How many veterans' suicide will it take to reverse this course?
	While many of our nation's veterans with severe PTSD fear the loss of 
their disability benefits and their VA health care, I fear the loss of their 
lives.
	Many agree with PVA's testimony that will appear later, written testimony, 
that the review which is underway may well be illegal.  A court may ultimately 
find this to be so.
	Such a finding would be little comfort, however, to families who have 
already lost a spouse, father, grandfather, or child to suicide as a result of 
the stress this proposed review is placing upon severely disabled veterans.
	Does VBA really believe that it can meet the stringent requirements for 
clear and unmistakable error in the decisions of veterans whose claims are being 
reviewed?  How can they do that?
	Does the IG have any evidence to support the suggestion that all of the 
claims which reportedly lack adequate stressor verification could be terminated 
under existing statutes?
	How can any review which ignored and continues to ignore the thousands of 
veterans who have had PTSD claims denied with little or no attempt to adequately 
develop their claims be viewed with any credibility by the veterans' community?
	The GAO recently found that many veterans' claims were rated without 
adequate medical examinations which may have entitled them to a higher rating 
and benefit.  Will VA be contacting those veterans that were denied benefits and 
scheduling a new medical examination?
	Are we jeopardizing the lives and health of America's severely disabled 
veterans so that the bureaucracy will have a complete paper file?
	Does the government have a moral and ethical responsibility to mitigate 
the danger to the lives and health of veterans occasioned by this review?
	I hope that the witnesses will be able to answer my questions.
	And before I concluded, Mr. Bradley, as many people know, and I say this 
often enough, in Las Vegas, Southern Nevada has the fastest-growing veterans' 
population in the United States.  We have veterans from World War II, Korea, 
Vietnam, the Gulf War, and now we have many returning veterans from Iraq and 
Afghanistan.
	I have witnessed with my own eyes people in the Vietnam era, that was my 
era, that came back seriously mentally damaged.  And this nation did not do what 
I think was our moral responsibility to help these kids that came back, while I 
was sitting in a college classroom, severely mentally disabled from the 
experiences they had in their theater of war.
	Now, I did not appreciate it when I was in college.  I appreciate it now 
when I am sitting here next to you in Congress.  And under my watch, I would 
never forgive myself if we were to implement actions that would create further 
mental harm to these people who have sacrificed so much in the prime of their 
lives, who have had their lives completely altered on behalf of this nation.  
And I think we have a great responsibility to these people.
	And I want to hear what is going on, but I cannot imagine systematically 
reviewing 100 percent PTSD victims when I believe there are so many more out 
there that need the additional help and need to be taken care of rather than 
taking away benefits, putting these people in harm's way, sacrificing their 
families, and ultimately this nation.
	And I thank you very much.
	MR. BRADLEY.  Thank you, Ms. Berkley.
	[The Statement of Ms. Berkley appear on p. 46]
 
	MR. BRADLEY.  Are there any other members who have opening statements?
	Mr. Udall.
	MR. UDALL.  Thank you, Mr. Chairman.
	Mr. Chairman, I would like to recognize and thank New Mexico Veterans' 
Secretary John Garcia for testifying today.  John is going to appear on Panel 
Number II.  We in New Mexico know Secretary Garcia well.  We know his dedication 
and loyalty to veterans.
	It is not uncommon for a veteran to walk into his office and to speak 
directly with him about concerns and issues of importance.  And I know that the 
Secretary is as concerned and angry as I am with the manner in which the VA has 
proceeded on this PTSD matter.
	It seems that time and time again we hear the larger facts about PTSD:  
How it affects 11.5 percent of all veterans; how nearly nine out of ten veterans 
with PTSD demonstrate signs of other disorders, including depression, alcohol 
and substance abuse, or anxiety; how the number of veterans diagnosed with PTSD 
has risen while the number of services being offered by the VA has dropped; how 
the stigma of PTSD is still prevalent throughout the military and prevents many 
veterans from seeing care until it may be too late.
	However, even with all these facts and figures, the individual stories of 
struggle are sometimes lost, and PTSD has become simply another medical term, 
another column in the books.  And, unfortunately, this became the perspective, I 
think, of the VA.
	In August, it was immediately clear that the VA's review of 72,000 PTSD 
cases meant something different to them than it did to the veterans suffering 
from PTSD.  To the VA, it was a process for seeking out incomplete cases and 
finding voids in paperwork that needed to be filled.
	The IG report that catalyzed the review included charts and graphs and 
made suggestions for action.
	To veterans, though, the announcement that their case might be reviewed 
was not seen as simply another bureaucratic process.  It was for many a jolting 
realization that the day-to-day struggle they endure was being questioned and 
that their quest for help to deal with this struggle needed external validation.
	For those who live with PTSD, the review did not mean a paperwork review 
as much as it meant a personal attack on what is already a sensitive issue.
	Last week, a veteran in my district took his life after dealing with PTSD 
for years and years.  He can certainly be perceived as one statistic within the 
larger, tragic figure of those veterans who contemplate or act on suicidal 
thoughts.
	But he can also be seen as he should be, as a Vietnam vet decorated with 
the Purple Heart and other commendations.  He was a soldier who fought bravely 
and honorably for his country.  Involved in local veterans' organizations, he 
helped out at events and with other veterans and all the while he struggled to 
deal with PTSD.
	Even though his case was well-documented and he was in no danger of 
finding his compensation or medical assistance benefits revoked, he was greatly 
shaken by the announcement of the VA review and frequently inquired whether he 
would be losing the support he had received.
	He believed, as so many veterans do, that he was being forced to prove 
himself yet again.  It is that belief that makes veterans so angry and so 
frustrated with this process.
	I believe the VA's intentions to bring clarity and accountability to PTSD 
cases were not in any way meant to harm our veterans.  But I believe the manner 
in which they proceeded with the review, without any input from mental health 
professionals concerning the risk of harm to veterans with severe psychiatric 
symptoms, has done far more harm than good.
	It is important that we compile facts and figures and that we be concerned 
with the larger picture.  It is more important that we not forget veterans who 
have borne the battle and now struggle with PTSD, and how our actions affect 
then.
	I have called and will continue to call for a halt to the review.  The VA 
must reevaluate the process it is using in this review and must take into 
account how it is affecting veterans.  It is better that we stop this review 
before more lives are lost rather than continue with troublesome and tragic 
consequences.
	Again, Secretary Garcia, thank you for your presence. We look forward to 
your testimony today on Panel II.  And I thank you for your tireless work on 
behalf of New Mexico's veterans.
	Thank you, Mr. Chairman.  Look forward to our witnesses today.
	MR. BRADLEY.  Thank you, Mr. Udall.
	[The statement of Mr. Udall appears on p. 50]
 
	MR. BRADLEY.  Mr. Evans.
	MR. EVANS.  Thank you, Mr. Chairman.
	I would like to thank the Ranking Member, Ms. Berkley.
	I requested a review of VA practices which have resulted in low benefits 
for service-disabled veterans in Illinois and throughout the nation.  We 
certainly did not expect the lop-sided IG review that we received.
	My staff reviewed PTSD claims in Chicago.  These are some of the veterans 
whose claims were denied: a World War II veteran with a Combat Infantry Badge, a 
Vietnam veteran who participated in the 1969 Tet Counter-offensive, a peacetime 
veteran who witnessed the extremely traumatic death of a co-worker, and an Iraq 
veteran with PTSD noted on compensation and pension examination form.  The VA IG 
review completely ignored such claims.
 I hope today's hearing will lead to the end of the VA's destructive action 
against veterans with severe PTSD.  The veterans' advocates are right.  We must 
stop this process before any more veterans take or lose their lives.
	Mr. Chairman, I ask that a letter that Ranking Member Akaka and I sent to 
Secretary Nicholson concerning this matter be included in the record.
	I want to thank you and your staff.  And I have this statement for the 
record.  Thank you.
	MR. BRADLEY.  So ordered.
	[The statement of Mr. Evans appears on p. 57]
	[The attachment appears on p. 151]

	MR. BRADLEY.  Will panel one please come to the table.
	Mr. Jon Wooditch is the Acting Inspector General, Department of Veterans 
Affairs.  He is accompanied by Mr. Michael Staley, the Assistant Inspector 
General for Auditing.  Next, Ms. Cindy Bascetta, the Director of Education, 
Workforce, and Income Security Issues represents the Government Accountability 
Office.
	Welcome to you all.  Your full statements will be included in the printed 
record of the hearing and we will hold our questions until each of you has 
testified.
	Please proceed.


STATEMENTS OF JON A. WOODITCH, ACTING INSPECTOR	GENERAL, DEPARTMENT OF
VETERANS AFFAIRS, OFFICE OF THE INSPECTOR GENERAL; ACCOMPANIED BY 
MICHAEL L. STALEY, ASSISTANT INSPECTOR GENERAL FOR AUDITING, DEPARTMENT OF
VETERANS AFFAIRS, OFFICE OF THE INSPECTOR GENERAL; CYNTHIA BASCETTA, 
DIRECTOR, EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, GOVERNMENT 
ACCOUNTABILITY OFFICE

STATEMENT OF JON A. WOODITCH

	MR. WOODITCH.  Thank you.
	Mr. Chairman and other distinguished members of the Subcommittee, I am 
pleased to be here today to address the Office of Inspector General report, 
Review of State Variances in VA Disability Compensation Payments.
	I am pleased to be joined by Mike Staley, Assistant Inspector General for 
Audit.
	Last December, the VA Secretary asked the IG to conduct this review in 
response to concerns raised by several Members of Congress over the wide 
variance in average annual disability compensation payments by state.
	For Fiscal Year 2004, veterans in New Mexico received over $5,000 more per 
year than veterans in Illinois.  To determine the cause of the variance, we 
analyzed six years worth of benefit claims' data, surveyed over 1,900 rating 
specialists, examined 2,100 claims' folders, and reviewed medical examination 
reports.
	Our review identified a number of factors that influenced the variance.  
Two key reasons highlighted in the report are veteran demographic factors and 
benefit rating decisions.
	Demographic factors are variables beyond VA control.  For example, Vietnam 
veterans receive over $2,300 more than the next highest period of service.  
Enlisted personnel receive more than officers and military retirees receive more 
than nonretirees.
	Our review demonstrated that there was a direct correlation between these 
factors and those states with the highest average annual payments.  This 
supports the position that some part of the variance is predictable and 
nonproblematic.
	Conversely, factors such as benefit rating processes over which the VA has 
direct influence are problematic in that they are not always consistently 
applied nationwide.
	Our analysis of rating decisions shows that for disabilities that can be 
independently validated on physical measurements, such as amputations, ratings 
were consistent.  However, for other disabilities, such as mental disorders, 
much of the information needed to make a rating decision is not physically 
apparent.
	As such, these cases are more difficult to develop and document and are 
inherently more susceptible to variations in interpretation and judgment.  This 
subjectivity leads to inconsistency in rating determinations.
	We selected the mental disorder system for further analysis because it had 
the highest overall average disability rating nationwide and it included PTSD, 
which is the fastest-growing condition.
	To illustrate, from fiscal years 1999 to 2004, the number of PTSD cases 
grew by 80 percent and PTSD payments increased from $1.7 to $4.3 million.  There 
was also a dramatic rise in the number of PTSD cases rated 100 percent.  In 
fact, data shows that differences in the number of 100 percent PTSD cases by 
state accounted for 34 percent of the variance.
	To understand why this variance may be occurring, we reviewed 2,100 PTSD 
cases at seven VBA regional offices.  We found that 25 percent of the 2,100 
cases needed further development to support the claimed stressor in order to 
verify that the PTSD was caused by an event related to military service.
	The 25 percent error rate is not an indicator of fraud.  It reflects 
noncompliance with VBA regulations concerning required documentation to develop 
and support rating decisions.  These requirements are essentially internal 
controls designed to ensure veterans receive everything they are entitled to 
under the law and to serve as a basis for denying claims when the evidence does 
not exist.
	To address this issue, we recommended that VBA do a review of all PTSD 
cases rated 100 percent.  The intent of this recommendation is to ensure the VBA 
rules and regulations are fully complied with, that the processes for case 
development are consistently applied nationwide, and to ensure that benefits are 
being paid properly.
	In closing, I would like to add that the variances by state have existed 
for decades and that the factors that influence these payments are complex and 
intertwined.  Yet, there are opportunities to improve the consistency of rating 
decisions.
	The impact of underlying factors such as medical examination reports that 
do not consistently provide sufficient data for rating purposes, incomplete case 
development, and a rating schedule that is subject to different interpretations 
will have to be fully studied and understood if the VBA is to be successful in 
detecting, correcting, and preventing unacceptable payment patterns.
	That concludes my statement.  Thank you again, Chairman Bradley, and those 
members of the Subcommittee for this opportunity.  I welcome any questions you 
may have.
	[The statement of Mr. Wooditch appears on p. 58]
 
	MR. BRADLEY.  Ms. Bascetta.

STATEMENT OF CYNTHIA A. BASCETTA

	MS. BASCETTA.  Good morning, Mr. Chairman, and other members of the 
Subcommittee.  Thank you for inviting us to testify today on the consistency of 
decisions made by VA on veterans' claims for disability compensation.
	Ensuring that disability decisions are consistent across the nation is 
vital to the integrity of the VA Disability Programs which GAO designated as 
high risk in January 2003.
	As you requested, my comments today are based on our two most recent 
reports on decisional consistency.
	Our November 2004 report concluded that VA still does not systematically 
assess consistency across its regional offices and the report we issued last 
week shows one important way for VA to improve consistency involving joint and 
spine impairments.
	We made recommendations in both reports that underscore the need for VA to 
routinely monitor consistency to ensure that veterans get the benefits they 
deserve for disabilities connected to their military service.
	Building on previous work, we reported last November that the need for 
adjudicator judgment results in inherent variation in the decision-making 
process.  Examples where judgment is required include claims with conflicting 
medical opinions and claims for which disability standards are not entirely 
objective, such as those involving mental impairments or pain.
	In these cases, different adjudicators could reach different decisions 
about the severity of a veteran's disability depending on how they weigh various 
pieces of evidence.  But it is still reasonable to expect that the extent of 
variation would be confined within an acceptable range as agreed to by 
knowledgeable professionals.
	Yet, we have reported and you have just heard the IG comment on why the 
state-to-state variations and average compensation payments per disabled veteran 
raise questions about consistency.
	Because of the need to reduce the risk of decisional inconsistency, we 
recommended that the Secretary develop a systematic, data-driven approach to 
identifying potential inconsistencies among VA's 57 regional offices and then to 
study those inconsistencies in detail with regard not only to awards but denial 
of benefits for specific impairments.
	VA concurred with our recommendation, but has not yet implemented it.
	The report we issued last week assessed VA's progress in improving 
consistency of the quality of medical information provided by VA physicians to 
regional offices for their use in deciding joint and spine claims.
	As you know, in the DeLuca case, the court held that VA claims 
adjudicators must consider whether range of motion is further limited by factors 
such as pain and fatigue during flare-ups or following the repetitive use of the 
impaired joint or spine.
	VA itself reported in a baseline study conducted in 2002 that fully 61 
percent of exam reports on joint and spine impairments did not provide 
sufficient information to comply with DeLuca.
	We found that VA has made substantial progress since its 2002 study, 
decreasing the number of deficient exams from 61 to 22 percent.  Three factors 
contributed to this progress:  Creating the Compensation and Pension Exam 
Project Office to improve the disability exam process; providing extensive 
training to both VHA and VBA personnel; and establishing a performance standard 
for the quality of medical center exam reports.
	Nevertheless, more than one in five joint and spine exam reports still do 
not comply with DeLuca.  And more improvement is needed to reduce the wide 
variations among VA's health care networks where deficient DeLuca exams range 
from eight percent in the best networks to forty-three percent in the worst.
	As a result, VA cannot reasonably assure that these veterans, no matter 
where they live, receive fair and equitable decisions on their disability 
claims.
	To continue the progress made so far, we recommended that VA use a 
strategy focused on improvement efforts within its health care networks, an 
additional performance measurement.  VA concurred in principle with this 
approach.
	In conclusion, it is incumbent on VA to implement all of our 
recommendations relating to consistency.  Until assessments of consistency 
become a routine part of VA's oversight decisions made by its regional offices, 
veterans may not consistently get the benefits they deserve for disabilities 
connected to their service, and taxpayers may lack confidence in the 
effectiveness and fairness of VA's disability program.
	While it would be unreasonable to expect that no decision-making 
variations would occur, we continue to urge VA to measure and limit 
inconsistency through systematic study, targeted improvements, and concerted 
performance measurement.
	And I would be happy to answer any questions you might have.
	MR. BRADLEY.  Thank you.
	[The statement of Ms. Bascetta appears on p. 66]
 
	MR. BRADLEY.  Mr. Staley, do you have an opening statement?
	MR. STALEY.  No, sir.
	MR. BRADLEY.  In that case, we will go right to questions.
	Mr. Wooditch, you indicate that one of the factors in the variances of 
decisions is insufficient medical exam reports.
	What is your sense of the working relationship between VBA and VHA?  Are 
there clear guidelines between the two on what is needed to adjudicate a claim?
	MR. WOODITCH.  I believe that VHA and VBA have made a lot of progress in 
the last few years to standardize templates in order to do medical examinations 
for rating purposes.
	As our report points out, very few people have access to these templates, 
but I know they are working together to improve the omission of data that has 
existed in past examination reports that is needed for rating purposes.  And I 
think that they are making progress.
	MR. MILLER.  [Presiding]  I apologize for being late.  We have been at a 
hurricane briefing for the State of Florida.
	Ms. Berkley, would you like to go ahead and ask your questions.
	MS. BERKLEY.  Thank you, Mr. Chairman.
	I spent a lot of time with my veterans in Las Vegas, one, because I want 
to and, two, because they trust me and because of my position here on this 
Committee.  They have grown to know that they can trust me and that I have their 
best interest at heart at all times.
	I meet with my disabled veterans a lot and I have had occasion to meet 
with those that have really suffered severe mental illness because of their 
service to this country.
	I admit one of the first veteran's cases that we took when I first came to 
Congress was at a town hall meeting where a Vietnam vet came to me with a stack 
of correspondence he had had with my predecessors who kept kicking back to him 
the same letters that we were getting from the VA that he was only 50 percent 
disabled as opposed to 100 percent disabled.
	And when he came to see me, it was very apparent within the first five 
minutes that this guy really had a serious problem and that we were doing a 
tremendous disservice to him because we never reviewed his case.  We never 
looked at his case.  We just kicked back the same stuff that was initially put 
in his file and nobody took the time to look behind that and see what was going 
on with this person.
	And after a whole lot of effort, we ended up ensuring that he was 100 
percent disabled and I think that should have been the appropriate diagnosis 
from the beginning.
	And that was the first of many veterans that I have tried to help when it 
came to their rating for disability, especially when it comes to their mental 
health.  This is an area that people do not like to acknowledge.  It is an area 
that is subjective in many ways.
	I mean, you do not see an open wound.  You do not see blood.  You do not 
see broke bones.  But you have a broken person in front of you.  So I think it 
is a little more difficult to adjudicate.
	I do not know how much time you have spent with veterans, especially those 
with PTSD, but I have spent a considerable time.
	Did the IG expect that the VA would terminate benefits of veterans whose 
claims were reviewed?  I mean, walk me through this.  When we do this review of 
the 72,000 veterans that are 100 percent disabled, how do we do this and what do 
we expect from the veterans?  And did we expect to terminate their benefits that 
they were accustomed to receiving?  What was the thinking?
	MR. WOODITCH.  The review started with trying to understand why the 
variance existed.  We determined that 100 percent PTSD ratings was a primary 
contributor to that.  When we looked behind it, we found what we called a 25 
percent error rate in 2,100 cases.
	As I mentioned in my opening statement, the error rate is not an indicator 
of fraud.  It is just an indicator of VBA not complying with its rules and 
regulations.
	The basis in doing the 72,000 review is to find out what the magnitude of 
the total population is with respect to this error rate.
	MS. BERKLEY.  Are you going back and looking at cases where they were 
denied or people that have been adjudged 50 percent and maybe they are entitled 
to 100 percent?
	MR. WOODITCH.  We did not look at denials.  Denials did not contribute to 
the average payments in the state, so denial was not an issue for us.  We just 
looked at approved claims.
	We did not look at the rating level to see whether or not it was an 
accurate rating level.  All we looked at was whether or not the documentation 
that was required by law was, in fact, in the claims' folder to support the 
rating.
	MS. BERKLEY.  And under what legal authority did we do that?
	MR. WOODITCH.  The IG, under the "IG Act'' authority, has the mandate to 
look at compliance with rules and regulations.  So it was a compliance issue.
	MS. BERKLEY.  Well, according to 38 USCS Section 511, it says that the 
Secretary shall decide all questions of law and fact and that the Secretary's 
decision shall be final and conclusive except with a few exceptions.  But I do 
not see how this fits into any of the exceptions.
	So how are we going about it?  After these cases are adjudged and they are 
final, how do we go back and add additional stress to these veterans who are 
barely getting by on a day-to-day basis and tell them that they may not be 
entitled to this?  How do you do that?  Why would we be doing that?
	MR. WOODITCH.  To go back and answer one of your earlier questions, our 
intent was never to terminate benefits.  Our intent was to work with the 
veterans and their representatives to review unit records and other sources of 
information in order to come up with the documentation that was required by law 
in order to justify their ratings.
	MS. BERKLEY.  Now, people with PTSD have high rates of suicide.  We just 
heard of a tragic case in New Mexico.
	In recommending the review of finally-decided claims, did the IG take into 
account the risk of potential suicide or other violent behavior by asking the 
veterans to revisit their stressors?
	MR. WOODITCH.  First of all, I am sorry to hear about that.  It is a 
tragic incident.  I think the problem here is information control.  Our 
recommendation to review 72,000 cases was not intended to go out to all veterans 
and say we are going to review 72,000 cases.
	A lot of the review work can be done by looking at data systems or records 
within VA.  In doing so, many of those cases could be eliminated from review.  
It is unfortunate that that impression is out there, this misinformation needs 
to be dealt with.
	MS. BERKLEY.  Rather than go back and have these veterans who have already 
suffered serious stress because of their service in the military, why not 
develop the appropriate indicators for future cases?
	It would seem to me that the VA has the issue, not the veterans who have 
already been adjudicated to have PTSD at a 100 percent level.  I mean, does it 
matter that they would be 95 or 90 percent?  Does it save this country that much 
money that we would create additional burdens on these people who have already 
suffered so much?
	MR. WOODITCH.  I agree with what you are saying.  I think maybe if you 
just reviewed the 2,100 cases that VBA is doing, it would help to identify 
parameters for how we look at future cases.  I think that the issue is worthy of 
discussion.  we need to make a decision what we are going to do.
	MS. BERKLEY.  And I would join with my colleagues in New Mexico and call 
for a halt to this.  I think you have enough information and we have caused 
enough anguish.
	Thank you very much.
	MR. WOODITCH.  Thank you.
	MR. MILLER.  Mr. Bradley.
	MR. BRADLEY.  Thank you very much, Mr. Miller.
	Ms. Bascetta, how do your findings regarding inconsistencies with VBA's 
decisions compare to the Social Security Disability system?
	MS. BASCETTA.  We have spent an equal amount of time looking at both 
systems and in both cases, we find that neither SSA nor VA has tackled the 
consistency problem adequately in our view.
	In the Social Security case, it is a little bit different because their 
focus has been on looking at inconsistency between their appellate and their 
initial level.  But we find in earlier work that they also among their 
disability determination services experience considerable inconsistency at the 
initial award level.
	The bottom line is that both agencies tell us that they are doing things 
to improve consistency such as improving training or tightening guidance to 
their offices.  But neither one of them has actually measured how consistent 
their decisions are.  And until they do that, we believe that program integrity 
just is not where it should be.
	MR. BRADLEY.  You indicate that in applying the DeLuca criteria there have 
been substantial improvements in the joint and spine medical examination 
reports.
	Do you have recommendations as to how similar improvements can occur in 
PTSD exams?
	MS. BASCETTA.  We actually looked at the CPEP report because in the DeLuca 
case, what the CPEP report shows is that the quality of medical exams certainly 
is an input that could be contributing to inconsistency.
	Actually, in the PTSD case, the data from CPEP show that they are doing 
pretty well in that domain with a couple of exceptions.  At the initial review 
level, 25 percent of exams had problems in assessing the DSM-IV criteria and at 
the subsequent review level, almost two-thirds were inadequate with regard to an 
assessment of remission or readjustment capacity.
	So there is certainly something to look at in the medical exam area.  But 
overall in that area, they were at 89 and 92 percent adequacy.
	So we think that to the extent that there is inconsistency in the PTSD 
decisions, something else, some other root cause must be driving it.  So we go 
back to our broader recommendation and suggest that VA take a look at both 
awards and denials to find out where adjudicators may be weighing information 
differently or using different factors in ways that would create inconsistent 
outcomes.
	And perhaps the use of performance measures or other impairment-specific 
strategies would be helpful in eliminating or reducing the inconsistency.
	MR. BRADLEY.  Thank you very much.
	MR. MILLER.  Mr. Udall.
	MR. UDALL.  Thank you, Chairman Miller.
	I'm trying to understand, Mr. Wooditch, first of all, what was your 
motivation for looking at PTSD and stressors?  Was there some indication that 
came to you that there was some problem here or was this just something that was 
dreamed up in your shop?
	I mean, did somebody come forward and say we have a serious problem with 
the way the VA is doing this and that's what initiated it or was it an internal 
issue with your operation?
	MR. WOODITCH.  It was an internal issue with the IG.  We reviewed data 
from the 15 major body systems that disability ratings occur in.  And as I 
mentioned earlier, we determined that in the mental disorder system -- 
	MR. UDALL.  I am trying to say what inspired.  So it was an internal 
issue, you are saying, that you were looking at things to review?  It wasn't 
that somebody from the outside came and told you there is a big problem here 
with the way the documentation is working on stressors in the file?
	MR. WOODITCH.  That is true.
	MR. UDALL.  Okay.  I just want that one part established.
	Now what I am trying to figure out is, you did your look into it and you 
found there wasn't adequate documentation on the stressors, correct?
	MR. WOODITCH.  Yes, sir.
	MR. UDALL.  And after you did that, was your expectation that the VA under 
the current legal authority and how they are required to review these cases that 
they were going to go out and reopen 72,000 cases based on your report or was 
your intent more to tell them, look, you have got problems with what you have 
done in the past, you ought to try and look at future cases and make the 
documentation better?
	MR. WOODITCH.  I think our intent was to cover both of those areas.  I 
think our intent was to go look at cases that have been approved and if the 
documentation was not available and it was determined that the individual 
receiving the benefits was not entitled to the benefits under law, an 
appropriate review process should take place.
	MR. UDALL.  And you are aware of the legal authority, aren't you?
	Congresswoman Berkley read to you the legal authority with which the 
Secretary has the ability to review cases.  And just let me cite that again.  It 
says the decision of the Secretary as to any such matter shall be final and 
conclusive and may not be reviewed by any other official.
	And so if you have a decision that has been made to grant PTSD, unless 
there is fraud or unless there is what is called in the law a clear and 
unmistakable error, then the Secretary cannot touch that decision at all; isn't 
that correct?
	MR. WOODITCH.  Yes, sir.
	MR. UDALL.  And so really the standard here is very, very high for the 
Secretary in terms of his ability to open this up.  I mean, we have set a very 
high barrier in the law and in the regulations basically telling the Secretary, 
after you decide one of these cases, unless there is fraud or a clear and 
unmistakable error, you should not be opening these things up.
	And, yet, what they have done is they have gone back to the individual 
veterans and said to the veteran, you have a problem with your documentation in 
your file.  You come forward as a veteran and prove to us that these stressors 
which occurred to cause the PTSD maybe ten and fifteen years ago, that they have 
to prove the Veterans' Administration that there was actually a stressor.
	I mean, under the legal standard, don't you find that a little bit 
incredible what the agency is doing and how they are abusing veterans?
	MR. WOODITCH.  I was not aware that VBA had reached out and opened up any 
of these cases.  Again, our intent was to basically comply with the rules and 
regulations for documentation.
	And I agree with the citation that you just mentioned, that the only basis 
for denying payment is under clear and indisputable evidence that the individual 
is not entitled to the benefits or fraud.  But in doing the review, in order to 
gain the documentation to meet the rules and regulation compliance procedures in 
the department, if they do find instances where an individual is not entitled to 
the benefits or fraud, then we do expect that that be dealt with.  But our 
intent was not to have any other benefits terminated.
	MR. UDALL.  And, you know, your kinds of reports, I think, are very 
valuable to agencies.  I am not attacking that in any way.
	But I think the thrust of what you have said is that we should look 
forward and as we do documentation, rather than going back based on the legal 
standards that are there and force veterans to dredge up incidents ten and 
fifteen years ago and come in and prove to the Veterans' Administration when 
they don't have to do that unless there is fraud or clear and unmistakable 
error.
	Sorry to run a little bit over, Mr. Chairman.  Appreciate it.
	MR. MILLER.  You were 34 seconds over.
	MR. UDALL.  You can take it out of my hide the next time around.
	MR. MILLER.  Ms. Brown-Waite, do you have any questions?
	MS. BROWN-WAITE.  Yes, I do, Mr. Chairman.  Thank you very much for 
holding this hearing.
	You know, one of the things that I have heard in the south is that 
northerners are very quick to say, well, this is the way we did it up north and 
we need to get over that.
	Well, one of the things that I regularly hear and that I believe is that 
in other parts of the country that the various disabilities are treated much 
differently than what they happen to be in Florida, particularly the VA 
disabilities.
	And when you are talking about reopening or reviewing 72,000 cases, I 
think the natural question has to be, what is this going to do to those already 
in the pipeline?  That would be question number one.
	Question number two, when I walked in and my colleague, Ms. Berkley, was 
telling the story, I believe, about where, you know, nobody would go back and 
really review the veteran's disability case, I had exactly the same situation 
where I had to say, listen, this guy really was a Navy Seal.
	I actually got the VA to issue a letter of apology because of all the 
grief they put him through because as he said, he said, yes, the money would be 
helpful, yes, the 100 percent disability rating.  He said but more importantly, 
I think that the VA owes me an apology.  And I insisted that they write a letter 
of apology to him and they did.
	But how are the ongoing cases which are already so long in the pipeline, 
are they going to be affected at all by this review?
	MR. WOODITCH.  I don't know how extensive the 72,000 case review will be.  
I know that there is a lot that could be done by looking at information that is 
currently in VBA's information systems to eliminate the great majority of those 
cases.  I mean, the evidence exists in the systems.  So I don't suspect that 
they will reopen 72,000 cases.  I think it will be a much smaller number than 
that.
	And I know there is a quality concern as well and that any additional 
workload obviously has an impact on VBA, but timeliness of processing is not the 
only issue that the IG is involved in.  We also want quality of rating 
decisions.
	MS. BROWN-WAITE.  And I think uniformity of rating systems sure would 
help.
	MR. WOODITCH.  Yes, ma'am.
	MS. BROWN-WAITE.  Let me ask another question.  I had another veteran that 
the staff just totally were beating their head against the wall contacting VA.  
It was a disability claim that we had sent in and I finally reached somebody in 
VA Disability who was able to really help me to understand what the problems 
were.
	Initially when I called, he said I am sorry, we don't have that document.  
I said, no, you do have that document because we sent it in.  He said, ma'am, 
hold on.  Let me go to another program.  He went to a second program and he 
said, well, it is not there, but let me go to another program.
	After four different programs, he told me, oh, yes, we did receive that 
document.  He had to each time -- it was not just another screen.  It was 
another program.  This is part of the frustration, I believe, in the whole 
disability system.
	I said to him, so you mean to tell me that when my staff was calling in or 
when a veteran was calling in that depending on what screen they first pulled 
up, they may or may not have the information, that there is no consolidation of 
this information.  The information is held in different programs.
	I only got to four.  I do not know.  Maybe there is eight or twelve.  I do 
not know.  But it is, like, it is no wonder that veterans cannot get answers 
because depending on what screen the person that they happen to call pulls up, 
sometimes it has the information there.
	From what he said -- and I will never reveal his name because he was so 
darn helpful, you would probably consider him a whistle-blower -- but from what 
he said that, you know, a lot of people just do not go to the other screens.  
And so sometimes this information is kind of lost out there.
	Help me to put together why you cannot have or why the VA -- and maybe I 
should be asking this to, you know, auditor of the Inspector General -- why 
isn't there a consolidated system there that is going to help with those 
disability benefits?
	MR. WOODITCH.  The IG and as well as the Veterans' Benefits Administration 
knows that the IT systems are out of date.  They need to be updated.  We need to 
have consolidated systems that have veteran benefits' files that are easily 
accessible electronically.  But -- 
	MS. BROWN-WAITE.  Sir, answer me this.  Was he correct?  Is that part of 
the problem?  I think you did not answer my question.  Are there, like, at least 
four different programs that the disabilities people have to deal with and it is 
not consolidated?  Is that an accurate statement?
	MR. WOODITCH.  I do not know.  You will have to ask the Veterans' Benefits 
Administration.  I do not know how many systems there are.
	MS. BROWN-WAITE.  Okay.  I would ask that staff follow-up on that.  It is 
no wonder, Mr. Chairman, that, you know, veterans who truly have disabilities 
who filed claims are frustrated over this.
	As I said, you know, he told me there were at least four systems and that 
does not work very well without some sort of integration of those systems.
	MR. MILLER.  Very good.
	MS. BROWN-WAITE.  I have a submission.
	MR. MILLER.  Your time is expired.
	[The statement of Ms. Brown-Waite appears on p. 48]
 
	MR. MILLER.  There is a vote that has been called.  I would like to go 
ahead and finish the questioning for this panel.  So, Ms. Berkley, if you would 
like to go ahead.
	MS. BERKLEY.  Let me ask Mr. Wooditch first.  Do you have any idea how 
much the cost of conducting these reviews are?   
	I mean, we have witness after witness, including the VA Secretary, sitting 
where you are begging us for more money because there is not enough money in the 
VA budget.  We are not adequately treating the veterans we have.
	Are we taking desperately needed resources that could go to the veterans 
and spending it on reviewing cases that do not much matter anyway?
	MR. WOODITCH.  I do not know what the cost of these reviews will be, but 
obviously it will be something.  We do not know how many cases will need to be 
reopened, so we do not have an estimate for that.
	MS. BERKLEY.  Why do we need to reopen any more cases?
	MR. WOODITCH.  I think that 25 percent error rate and lack of 
documentation is pretty significant and -- 
	MS. BERKLEY.  Wouldn't it make sense for us to start to direct the VA to 
fix the way they do their adjudication rather than going back over 72,000 cases?  
Isn't that a better use of our time and resources and efforts given the fact 
that the VA does not have enough personnel anyway?  Doesn't that make sense to 
you?
	MR. WOODITCH.  It seems like it makes a lot of sense.  It is a viable 
option which should be pursued.
	MS. BERKLEY.  And I would love to ask more.  So you agree with me that we 
should just move on with it and fix the problem without possibly endangering the 
lives and mental health of our veterans, PTSD veterans?
	MR. WOODITCH.  With the caveat that if there are veterans who are 
receiving benefits that they are not entitled to under the law, I think that we 
need to identify those and take appropriate action.
	MS. BERKLEY.  Yes.  But according to the law, the Secretary's decision is 
final and conclusive unless you can establish fraud.  And how are you going to 
do that unless you reopen every single case?  It makes no sense.
	We are not dealing with people that are 100 percent well, that are 100 
percent adjudged mentally disabled or with PTSD.  I mean, we are dealing with a 
nuance that does not seem to make any sense to me.
	Let me ask you something.  Your testimony raised an antenna for me.  You 
said that you had recommended that they review not only those that were 
receiving benefits but those that had been denied benefits?
	MS. BASCETTA.  That is correct.
	MS. BERKLEY.  Then how come that is not taking place?
	MR. WOODITCH.  How come we are not reviewing claims that were denied?  
Well, it is because it was not part of our review.  Again, we are trying to 
understand what caused the variances in payments.  Denied claims have no impact, 
so it just was not a factor in our review.
	MS. BERKLEY.  Explain to me what you are suggesting.
	MS. BASCETTA.  Well, I can understand why the administration would want to 
look at awards because of the impact on not only the total proportion of people 
on the rolls with that diagnosis but the proportion of payments.
	But we do not know, for example, what the total increase was for 
applications for PTSD.  There could have been a disproportionate number denied.  
So for program integrity purposes, we would be very concerned about a review 
that only looked at awards.  You would want to know about the denials as well.
	MS. BERKLEY.  Thank you.
	MR. MILLER.  Mr. Udall.
	MR. UDALL.  So, Ms. Bascetta, basically what you are saying is to just 
look at the awards without looking at the denials is an effective way in which 
to move forward?  To be balanced about it, you ought to be looking at the 
denials also?
	MS. BASCETTA.  Looking at the awards is only one part of the story.  You 
want to see that awards are consistently awarded and that denials are 
consistently denied.
	MR. UDALL.  And the VA is not looking at the denials?
	MS. BASCETTA.  I believe I heard at one point that they thought that they 
should look at denials at some point, but I do not think they have made a 
commitment to do that.  They are definitely starting with the awards.
	MR. UDALL.  You know, our understanding that the announcements that they 
have made is with regard to the awards and the 72,000.  There is no suggestion 
that they are taking a look at denials or moving forward with denials at this 
point.  At least that is, I think, our understanding.
	I mean, your agency looks at good governance and how to deal with things.  
I mean, here you are dealing with veterans that have a severe set of 
psychological problems.  They are given 100 percent disability.
	And then the government comes in when it has no legal authority and 
basically starts sending people out to talk to these veterans without, as far as 
I can tell, consulting psychologists on how to deal with this situation.  And 
they send them out and start challenging them and saying you have to come 
forward and prove the stressors because there is not adequate documentation even 
when this is ten and fifteen years ago.
	Does that sound like a good policy to you?
	MS. BASCETTA.  Well, no, it certainly does not.  The issue of stressors 
raises something else in my mind.  And, you know, this is a good example of why 
you really have to be fact based and data driven in your analysis of what is 
going on here.
	Our look at the CPEP data actually showed that the medical exams were, you 
know, up in the low 90s for compliance with documentation of a stressor.  So 
there is a disconnect somewhere between what the IG is finding in their 
documentation and what the CPEP report indicates.  It is another good reason why 
you have to dig deeper for the root cause of what the inconsistency is.
	Is it that in the totality of the evidence, the stressor that the 
adjudicator is looking at is being weighed differently or not carrying as much 
weight as something else?  Is that what is driving the inconsistency?  And, 
again, for both awards and denials.
	MR. UDALL.  How do we get to the bottom of that inconsistency?  What is 
the best way to do that?
	MS. BASCETTA.  Well, in the absence of an administrative database, it 
would help -- you know, they do not have the automated systems to do quick 
analysis.  So I think they have to pull case files and get adjudicators together 
and find out what their decision-making process was and how they arrived, what 
their rationale was for those decisions.
	It is a very difficult problem.  We are not trying to, you know, minimize 
how hard this is.  Disability decisions, particularly those that are less 
objective, are hard decisions.
	But in the absence of measuring consistency on hard cases like PTSD and 
pain and other impairments that are less objective, the department is vulnerable 
to exactly these kinds of problems, that, you know, there are allegations of 
fraud, that there are allegations, you know, that there are people who are 
unfairly awarded or unfairly denied because they simply do not have the data to 
prove that they are doing a good job in this area.
	MR. UDALL.  And there is no doubt these are hard decisions.  And it just 
seems to me when you are dealing with a veteran with severe psychological 
problems, trying to go back ten or fifteen years and figure out what went on 
with a stressor even makes it more difficult and more complicated.  And I do not 
know how it moves the process forward in any way.
	I mean, these veterans take this personally.  I mean, these veterans are -
- and it is not just the ones that have been asked.  All of them take this on a 
personal basis.  And I think you are going to hear that from Secretary Garcia 
and some of the other witnesses.
	Thank you, Mr. Chairman.
	MR. MILLER.  Thank you very much.  I appreciate the panel coming in and 
testifying today.
	What we will do now is recess until 12:45 and give folks an opportunity to 
take a break and we will come back.
	Again, thank you again very much.
	MR. WOODITCH.  Thank you, sir.
	[Recess.]
 
	MR. MILLER.  Thank you, everybody, for your indulgence.  I hope you were 
able to maybe get out and have a slight break.  I would like to go ahead and 
proceed with the next panel.  Panel two is a one-person panel.
	Mr. Garcia, thank you for being with us today.  He is the Secretary of New 
Mexico's Department of Veterans' Services.  You can proceed with your testimony, 
sir.


STATEMENT OF JOHN M. GARCIA, SECRETARY, NEW MEXI-
	CO DEPARTMENT OF VETERANS' SERVICES

	MR. GARCIA.  Mr. Chairman, members of the Committee, on behalf of Governor 
Bill Richardson and the veterans of the great State of New Mexico, as a Vietnam 
veteran, it is an honor and opportunity to testify regarding the U.S. Department 
of Veterans' Affairs' review process of posttraumatic stress disorder, PTSD, 
claims.
	In 2003, the New Mexico Service Commission became the New Mexico 
Department of Veterans' Services, a cabinet-level agency tasked with serving and 
ensuring that our veterans are receiving the benefits that they have earned.
	New Mexico has 180,000 veterans.  During the Vietnam War, we were number 
one in drafting percent, third highest in casualty rate.  Half of our Vietnam 
veterans in the State of New Mexico are combat veterans.  And just last year, 
approximately 59,000 veterans received some form of health care from the VA.
	The veterans in New Mexico are strongly supported by the benefits they 
have earned through their service.  And I and my staff are proud to serve them.
	Unfortunately the recent action taken by the VA has been a great 
disservice to these men and women.  In the original VA IG report, 2,100 PTSD 
claims were reviewed of which 300 were from the State of New Mexico.
	After being identified for further review, letters were sent to each 
veteran.  The letters that were sent threatened two possibilities for benefit 
losses.
	First, the letter implied benefits would be lost unless specific proof of 
PTSD was presented, a proof that for many veterans requires reliving horrific 
events during times of war and combat.
	Second, the letter implied that benefits would be lost if a veteran was 
not under current treatment.
	This policy of retroactive inspection has been received by the entire 
veteran community as an assault on every veteran, not just those for review.  
And it is clearly seen by both individual veterans and by veteran service 
organizations as yet a further requirement of proof of their service and their 
dedication to our nation.  And it is being inflicted upon these veterans who 
have experienced tremendous traumas, stress, and pain.
	Make no mistake about it.  This is a serious problem.   
	On October 8th, last week, a brother Vietnam veteran of New Mexico 
committed suicide.  He was a 100 percent service connected PTSD, unemployability 
combat veteran who had earned and been awarded a Purple Heart.
	While he was not one of New Mexico's veterans selected for review, the 
issue was on the forefront of his mind.  He was found with information of the 
retroactive report which was laying in front of him next to his Purple Heart 
medal.  And one of the last discussions he had with other veterans was about the 
review process.
	He is clearly a casualty of this flawed process.
	Why is it that the entire veteran community is being affected by this 
review when it is directed at only a small percentage of them?  The answer is 
because an attack on one veteran is an attack on all of us.
	And let me make this clear.  This review policy is perceived as an 
attitude, an attack, and a personal assault on the honorable service of all 
veterans.  It has forced veterans with PTSD, who have suffered and sacrificed 
because of their service to our nation, to yet again prove themselves to the VA.  
And I believe that this is wrong, it is horrible, it is a travesty, and it is an 
insult to the veteran and to his family.
	Last week, Mr. Chairman, members of the Committee, I received a letter 
from a Mrs. Lane De Priest, the wife of another brother Vietnam veteran who is 
suffering from PTSD.  Her letter was a plea for help that expressed concern, 
sadness, and outrage with the PTSD review.  And she spoke with passion on how 
this was so directly affecting their lives.
	And if I may, I would like to read you excerpts of this letter.  The 
letter is dated October the 7th, 2005.  She writes, "Recently my husband 
received a letter from the Department of Veterans' Affairs.  This letter 
indicated that he was under determination for his benefits.  He was given 60 
days to respond.  He was, in effect, asked to prove all over again what he has 
spent the last 36 years trying to prove.  At this time, he is receiving 100 
percent benefits for his PTSD."
	"As a result of this letter, I have spent the last three nights watching 
him walk the floor, scared his benefits are going to be cut off.  He turned in 
all of his paperwork as asked on Monday, October the 3rd, and was told by 
representatives at the VA Regional Office in Albuquerque that he would receive a 
call from that office on Monday afternoon.  He is still waiting for that call."
	"Many attempts to contact that office have been futile.  The young lady 
who was to call him back this afternoon is either not in, away from her desk, or 
unavailable.  And I find this unacceptable.''
	She continues to write, "This morning, I went to work and when I called my 
husband to inform him that I was safe at work, he told me he was going to fix 
everything.  I left work and when I returned home, he had called his brother to 
pick two guns that he owned.''
	"I immediately contacted the VA hospital and spoke to Dr. Mike Burger.  He 
calmed my husband down and promised he would look into the VA Administration and 
gather information.  Then he would call us back.''
	"I guess what I want you to know is that there are a large number of 
veterans in New Mexico who have received this same letter.  They and their 
families are going through much the same thing that my family is.  This has 
affected me, our children, and our grandchildren.''
	"Something needs to be done to stop this madness.  Our veterans are 
feeling they are worthless and they are being called liars.  How many veterans 
will succeed where my husband did not this morning?  This is very painful and I 
can't stress enough how important these veterans are to us.  This is my life, my 
husband's life, and our family.''
	Mr. Chairman, distinguished members of the Committee, on behalf of 
veterans in the State of New Mexico and over 26 million veterans of this 
country, I thank you for allowing me to express our concerns.
	This concludes my statement and I am happy to respond to any questions.
	MR. MILLER.  Thank you very much.
	[The statement of Mr. Garcia appears on p. 79]
 
	MR. MILLER.  Mr. Udall, I will let you ask the first questions and then I 
will have some of my own.
	MR. UDALL.  Thank you very much, Mr. Chairman.  I appreciate that 
courtesy.
	Let me just say once again how happy we are that Secretary Garcia is here.  
He has a distinguished record of service.  He served in the U.S. Army in the 
Central Island of South Vietnam and received a number of citations.
	We very much appreciate your service and appreciate having you here today.
	Secretary Garcia, I want to first of all ask you about the disconnect 
between the facts and the figures.  You sat here and listened to the testimony 
and people talking facts and figures.
	And the human element, the veterans' side, could you comment on the effect 
on families, on the impact in these communities where these things are 
occurring?
	MR. GARCIA.  Yes, sir.  Mr. Chairman, Mr. Udall, I think what people are 
forgetting is that there is a human element involved here.  For years when 
Vietnam veterans -- and I would suspect, I would bet the 72,000 cases being 
reviewed are probably 90 percent or more Vietnam veterans.
	As a Vietnam veteran, coming home from Vietnam, it took me over 30 years 
myself to get enough nerve and courage to go to the VA.  And many of the Vietnam 
veterans came home from Vietnam and did not go to the VA because the VA of my 
father was not taking care of my needs nor my brother's needs.
	And many veterans finally had enough courage and nerve to go back to the 
VA, the Vietnam era veteran, and his needs were starting to be taken care of.
	And the word came out about 15 years ago that veterans are going to be 
looked at that are suffering from PTSD because when Vietnam veterans came home 
from Vietnam, the VA did not know what to call this PTSD syndrome.
	When they finally figured it out, veterans were encouraged to go to the VA 
for service and treatment.  If you received a Bronze Star, Silver Star, Combat 
Infantry Badge, it was almost an automatic for PTSD.
	An administrative error more than likely, yes, has been created, but you 
cannot fix it on the backs of the veterans.  It is causing veterans to kill 
themselves.  We had a veteran fortunately who did not kill himself.  But how 
many other veterans of the country are going to be doing that?
	And that is the question I have.  I had a veteran in my office before I 
came here who just got 50 percent of a PTSD disability and, yet, he has the 
Combat Infantry Badge and a Bronze Star, and he was asking me why didn't they 
give him his 100 percent.  All I could tell him is they are afraid to give you 
the 100 percent now, and just to hang in there.
	We are working very closely with the Vet centers, the VA Regional Office, 
the VA Hospital, trying to inform the veterans that your benefits are not going 
to be taken from you.
	But the veteran community, as you know, it is a very tight community.  It 
is a brotherhood that you do to one, you do to all of them.  And in my opinion, 
this effort has to stop.
	MR. UDALL.  Secretary Garcia, when you talk about the brotherhood and how 
tight the community is, even though the numbers that are being reviewed are a 
small amount of the 72,000, do you think the, I guess, the 2,100, but the 
additional subtract out from the 72,000, the additional veterans in this group, 
that they are feeling this personally?
	MR. GARCIA.  I believe so.  Mr. Chairman, Mr. Udall, they are feeling it 
personally.
	In New Mexico, we have 180,000 veterans.  Thirty-one thousand are 
receiving some form of comp and pen right now.  That means I have got at least 
150,000 of the veterans out there that my service officers who have been trained 
to go out and reach out these veterans to get them to file for the disability 
probably have a fear factor of not filing now.   
	And I just think there is going to be major ripples of repercussions.  
One, discouraging the veterans to come into the VA.  But I think more outreach 
needs to be done.  Yes, sir.
	MR. UDALL.  Secretary Garcia, you said in your testimony that you had to 
get up the nerve to go in.  The Veterans' Administration for Vietnam veterans 
was not viewed as a friendly Veterans' Administration, right?
	MR. GARCIA.  Mr. Chairman, Mr. Udall, that is correct.
	MR. UDALL.  And so now what we have happening the Veterans' 
Administration, I think, did work very hard to build back the trust and put 
these programs in place and get disability to veterans.
	And now, I think what is coming back to veterans it sounds like is their 
memories of the way the Veterans' Administration used to be with this kind of 
behavior by the Veterans' Administration.
	MR. GARCIA.  Mr. Chairman, Mr. Udall, I would say that is correct.  It has 
taken years, I think, for -- the VA today is not the same VA as it was for our 
fathers.  It is not the same VA when I got home from Vietnam in 1970.
	And there has been great strides and effort for the VA to be user friendly 
to our veterans.  And there was great outreach done to encourage our veterans to 
come in and file for the PTSD disability on their comp and pen.
	And for most veterans, this is all the income they have in the family.  
And when you start challenging that and taking it away from them, you are not 
just impacting the veteran.  You are hurting the family and you are hurting the 
family members.
	You know, awarding a PTSD disability to some veterans, and I am talking 
about the Vietnam era veteran, it is more a validation of his service to 
country.  You all know what the Vietnam veterans went through when they came 
home from Vietnam.
	All of a sudden now, after 30 years of going back to the VA and they are 
getting their PTSD claim, only to be reevaluated again, and when they did 
receive that, it was a validation to them that what they did was honorable.  It 
has nothing to do with the money.  But when you take that away from that spouse 
and those children, what is the veteran left with?
	In our case in New Mexico, we had a veteran commit suicide, leaving the 
Purple Heart on his bed and documentation of this review analysis.  That is 
wrong.  That is totally wrong.  And it is an insult to the integrity of the men 
that served honorably with me in Vietnam.
	MR. UDALL.  Thank you very much.  Appreciate the courtesy, Mr. Chairman.
	MR. MILLER.  Mr. Secretary, following up on the veteran who committed 
suicide, you said clearly he was a casualty of the PTSD review.  Is it the same 
person?
	MR. GARCIA.  Yes, sir.
	MR. MILLER.  And this person had paperwork in his possession and that 
leads you to make that statement that the fact was he was not up for review?  
His case was not going to be reviewed?
	MR. GARCIA.  Mr. Chairman, members of the Committee, this veteran that 
killed himself with his Purple Heart next to him was not under review.  He felt 
the same pain that many Vietnam veterans feel.  And this gentleman should not 
have killed himself.  When you hurt one veteran, you hurt them all.
	And this gentleman was not under review, but he felt the process of the 
review was wrong.  He felt that they were going to take his disability away.
	And the conclusion we come to why he felt that was because just prior to 
the day he committed suicide, he was talking about the review process.  And near 
him was documentation about this review analysis of the PTSD claims to be 
withdrawn.  So to me, he is a casualty of this process.
	So whether you are receiving at 50 percent or you are 100 percent or you 
are one of the 300 cases in New Mexico that is being reviewed, you are being 
challenged all over again.  You have to revalidate what you did as a service to 
your country.
	It goes deeper than just trying to fix an administrative error.  I believe 
fix administrative error but not on the backs of the veterans.  Fix it from here 
on out.
	But I also believe what is happening is the regional offices, there is 
probably a fear factor going on where most veterans, most cases are probably 
being looked at more carefully and more stringent where proof of burden again is 
on the veteran.
	MR. MILLER.  Can you explain to me what your office is doing -- and you 
kind of alluded to this -- as far as letting the veterans know what the PTSD 
review process is and that, you know, why they are doing it?
	MR. GARCIA.  Mr. Chairman, members of the Committee, my office, Department 
of Veterans' Services, works very closely with the veteran centers in 
Albuquerque and in Santa Fe.  We have been working closely with the regional 
office and the VA and the veterans' service organizations explaining to veterans 
when they e-mail me, when they call me, or when they call the vet centers, 
telling them your PTSD benefits are not going to be withdrawn.
	We are trying to calm the veterans down.  They are upset.  Their e-mails 
are flying back and forth across the state and across the country.  The network 
is pretty tight as a lot of you are probably aware of with the veterans in your 
own region.
	We are doing our best to inform the veteran community based on the 
information that we are picking up.  I have not had any particular briefing, 
though, regarding this particular status of the PTSD benefits.
	MR. MILLER.  Would you provide this Committee the evidence of what your 
organization is doing in regards to letting the veterans know?
	MR. GARCIA.  Yes, sir.
	MR. MILLER.  I would appreciate seeing how the state would be handling 
that.
	And you talked about that this may be an administrative error.
	MR. GARCIA.  Yes, sir.
	MR. MILLER.  In your office, if somebody was awarded a salary increase or 
some type of an increase and you found out later that it was an administrative 
error, how would you handle that?
	MR. GARCIA.  Again, you are looking at apples and oranges.  If this was a 
bank, if this was a business -- 
	MR. MILLER.  I am talking about you.
	MR. GARCIA.  Well, in my office, I do make the adjustment.  It is either 
that or I have to eat the error myself and pay the penalty myself.
	MR. MILLER.  And would the error that you are eating yourself, if you 
will, would that affect others and could it affect other employees in their 
ability to get future increases?
	MR. GARCIA.  No, because then I would correct my error from there on out.
	MR. MILLER.  But the person, they would no longer have that raise though?  
They would go back to -- 
	MR. GARCIA.  That would be correct.  I would correct that.  Well, I would 
correct that error.  But here again with the PTSD issue, you are dealing with 
people with mental disorder.
	MR. MILLER.  Wait.  And please understand that I understand the subject 
very well and we all know people personally.   
	You are drawing a conclusion that every single one of them has PTSD.  The 
fact of the matter is they may not.  And that is what the review is all about, 
is it not, to find out if they were, in fact, adjudicated correctly to receive 
their benefits?
	So you are saying without question that they all suffer from PTSD at 100 
percent.  And we do not know that.  You yourself -- 
	MR. GARCIA.  No.  That is correct.  We do not know that.
	MR. MILLER.  Okay.
	MR. GARCIA.  Right.  But you are also talking about trying to fix an 
administrative error on the backs of veterans that are very sensitive that have 
some form of PTSD.
	MR. MILLER.  Some form, but maybe not 100 percent.
	MR. GARCIA.  Maybe not 100 percent, but veterans that have 50 percent, 20 
percent, 30 percent, I have had them in my office with a fear factor that they 
are going to lose their benefits.  And that is wrong.
	MR. MILLER.  And then your explanation back to them -- 
	MR. GARCIA.  Is they are not.
	MR. MILLER.   -- is that you only adjudicate -- no.  I heard you say that 
you were only adjudicating 50 percent because VA is afraid to give you 100 
percent.  Did you actually say that to a veteran?
	MR. GARCIA.  In the case of the veteran that came into my office before I 
got here, who was a combat veteran with a Combat Infantry Badge, it surprised me 
that the VA gave him a 50 percent evaluation when in most cases, I have seen 
veterans with a Combat Infantry Badge at 100 percent.
	MR. MILLER.  You mean everybody that has a Combat Infantryman's Badge 
should be 100 percent disabled with PTSD?
	MR. GARCIA.  The word that we have gotten is that if a veteran suffers 
from PTSD or has a CIB, a Combat Infantry Badge, a Bronze Star, Silver Star, it 
is almost an automatic that he will be given or granted 100 percent.  If he does 
not have that, he has to go through the process where he has to do his 
statement.
	MR. MILLER.  That is a question that I certainly will ask the Veteran 
Benefits Administration.
	MR. GARCIA.  Yes, sir.
	MR. MILLER.  That is hard to believe.  But thank you.  Thank you for your 
service.
	MR. GARCIA.  And I would be glad to, if my statement is incorrect, to get 
the right answer.
	MR. MILLER.  Well, a lot of times, statements are made to this Committee 
in particular -- 
	MR. GARCIA.  Yes, sir.
	MR. MILLER.   -- in ways to try to move the discussion in one direction or 
another.  And all we are trying to do as members of this Committee from both 
sides of the aisle is to fix a problem that may or may not be out there.  There 
may not be a problem.  I mean, nobody on this Committee has said that there is.
	But for you being down at the state line, it is very important.  And we 
appreciate the work that you do and the people that work with your agency do.  
And, again, thank you for your service to our country.
	Ms. Berkley, you are next.
	MS. BERKLEY.  Thank you very much, Mr. Chairman.
	Let me ask you a quick question because there seems to be a little 
confusion here.  Doesn't the rating depend on the veteran's symptoms?
	MR. GARCIA.  Yes, ma'am.
	MS. BERKLEY.  All right.  So they are rated according to how they show 
during their evaluation?
	MR. GARCIA.  As I understand it, yes.
	MS. BERKLEY.  When I was in law school, we were taught that you take the 
victim as they are.  And there are times that you say, well, how could this 
little accident have caused such a catastrophic problem in this person.  And the 
reality is every person is different.
	With our veterans, there are some veterans like my dad who went to the 
World War II, he came home.  He never thought about it again.  He has got 
friends.  He is 80 years old now and he has never looked back.  He has got 
friends that I know very well from my childhood until now that their World War 
II service and what they experienced was a defining moment in their lives.
	I see it time and again with our Vietnam veterans when they come home 
mentally damaged.  They either saw their friends torn apart, they experienced or 
seen things that most of us do not get to see, thank heavens, and they have come 
back and they are adversely affected in a very serious way.
	So when they are adjudicated 100 percent disabled because of PTSD, there 
are those that when they hear that there may be some sort of review, that they 
would not think twice about it.  There are others who because of what they have 
experienced and because of who they are would commit suicide because of their 
fear of having their benefits and their validation taken away from them.
	Would you agree with that?
	MR. GARCIA.  I would, yes, ma'am.
	MS. BERKLEY.  Now, before the Chairman came in, I mentioned that I had an 
experience when I first came to Congress with a Vietnam veteran who was 50 
percent disabled PTSD from the Vietnam era.
	And he came to me with a stack of papers, Mr. Chairman, this big, 
notebooks of correspondence he had with my two predecessors explaining his 
condition, explaining that he had only been interviewed for 20 minutes, only 
examined for 20 minutes, and after that 20 minute examination was given 50 
percent disability.
	He believed all these years since he could not work, he had flashbacks, he 
could not sleep, he wet his bed, he was dysfunctional, that he should be 100 
percent disabled.
	And all the computer kept doing, the VA computer, whenever any of my 
predecessors contacted them on behalf of this veteran was kick out the same 
information they had because nobody takes the time to go beyond what is in the 
files.  And we were able to get him 100 percent disabled.
	So the fact that they are disabled, I think 100 percent indicates, since 
that is such a difficult rating to acquire, that they have got some serious 
problems.
	So when this particular group of people hear that they are going to be 
readjudicated or rereviewed or they have to provide information about their 
stressors, I think it has in many instances an adverse effect.
	Now, do you think there might be some others, judging from your experience 
with your veterans and those that have PTSD and the experience with the veteran 
that committed suicide with his Purple Heart and his information next to him, do 
you think there is a possibility if we continue these evaluations that that 
might happen again?
	MR. GARCIA.  Yes, I do.
	MS. BERKLEY.  And on what do you base that?
	MR. GARCIA.  As I stated earlier, whether a veteran is receiving his 100 
percent PTSD disability or a 70 percent PTSD or 50 percent, the veterans that I 
am seeing, that is calling me are 50, 60, 70 percenters as well as 100 
percenters that are asking me the same question, are they going to lose their 
benefits.  We reassure them they are not.
	We had 300 veterans in New Mexico receive these letters.  I have got 
180,000 veterans.  I have got veterans in my state that are afraid that they are 
going to lose their benefits because of this.
	The gentleman that committed suicide, he was not even on the list, but he 
is that percentage that you just talked about.  But there are other veterans out 
there that I just want to make sure that they do not get into that box.
	MS. BERKLEY.  May I just ask one more question?
	MR. MILLER.  We have only 35 minutes; we have a full Committee hearing 
that we need to move to.  So we will come back around again.
	MS. BERKLEY.  Then I would want to speak to Mr. Garcia.
	MR. MILLER.  Can you explain or do you know that the veteran who committed 
suicide, since he keeps getting brought up in conversation, what treatment he 
was receiving?
	MR. GARCIA.  No, sir, I do not.  I know he was going to the Vet center for 
PTSD counseling.  He was very active in the veteran community is what I know.  
He came by our office several times, volunteered to help in Northern New Mexico 
on some veteran activities.  He was involved with his Veterans' Service 
organization.
	MR. MILLER.  I do not know if there is a way we can, but I would like for 
staff to find out for the members of the Committee this particular case and 
maybe it is an issue that we cannot.  But maybe there is a way that we can find 
out because it is obviously a compelling story.
	Mr. Udall, do you have any other questions, because Ms. Berkley really 
wants to ask -- 
	MR. UDALL.  No.
	MS. BERKLEY.  And thank you, Mr. Chairman, for your courtesy.
	How long have you been doing what you are doing?
	MR. GARCIA.  I was appointed in 2003 and I have been involved in veterans 
since I came home from Vietnam, but more actively in 1980 when I put together 
and found with other veterans the Vietnam Veterans of New Mexico and Vietnam 
Veterans of America that came into our state.  I was the Deputy Director for a 
program called the Vietnam Vet Leadership Program here in Washington, D.C. that 
worked from 1982 to 1985.
	MS. BERKLEY.  So I would say that at least half of your life has been 
spent in the service of veterans.
	MR. GARCIA.  Yes, ma'am.  I believe I am who I am because of my service.
	MS. BERKLEY.  Then with your life breadth of experience and knowledge of 
how veterans think and feel and having experienced it yourself as a Vietnam 
veteran, have you -- 
	MR. GARCIA.  Let me just clarify.  I am not the VA.  I am the State 
Director of Veterans' Services.  And I do not understand all the VA and I am 
trying to understand it.
	MS. BERKLEY.  Okay.  Thank you for that clarification.
	Have you seen any evidence in the veterans you assist that they are 
exaggerating their symptoms of PTSD to gain monetary compensation benefits as 
suggested by the IG?
	MR. GARCIA.  I have had veterans in my office exaggerating symptoms, yes, 
I have.  But I do not make a judgment on them.  My job is to provide service to 
all my veterans.
	I have trained service officers.  I have 20 field officers out in the 
State of New Mexico that work directly with our veterans that help them just 
file their forms.  And then they are assigned a Power of Attorney with the 
National Veterans' Service Organization that represents the National Service 
Organization and the VA that helps the veteran process his claim properly 
through the regional VA office.   	
We do not make any judgment on any veteran that walks in my office.  And I have 
had some doozies walk in.
	MS. BERKLEY.  Okay.  Thank you.
	MR. MILLER.  Thank you very much, Mr. Garcia.
	MR. GARCIA.  Mr. Chairman, members of the Committee, it is an honor to be 
here.  And thank you again, sir.
	MR. MILLER.  Thank you, sir.
	If the last panel could come forward and we will get name cards out in 
front of you.
	But while we are doing that, I would like to just go ahead and let the 
Committee know and for the record, Steven Brown is the Director of the VA 
Compensation and Pension Examination Project based in Nashville.  Mr. Ron Aument 
is the Deputy Under Secretary for Benefits at the Veterans Benefits 
Administration.  He is accompanied today by Ms. Ren�e Szybala, Director of VBA's 
Compensation and Pension Service.
	Dr. Brown, if you would, please proceed.

STATEMENTS OF STEVEN H. BROWN, DIRECTOR, COMPENSATION AND PENSION EXAMINATION 
PROGRAM, DEPARTMENT OF VETERANS AFFAIRS; RONALD R. AUMENT, DEPUTY UNDER 
SECRETARY FOR BENEFITS, VETERANS BENEFITS ADMINISTRATION; ACCOMPANIED BY 
RENE� SZYBALA, DIRECTOR, COMPENSATION AND PENSION SERVICE, VETERANS BENEFITS 
ADMINISTRATION

STATEMENT OF STEVEN H. BROWN

	DR. BROWN.  My name is Steven Brown.  I have been the Director of the 
Compensation and Pension Exam Program, or CPEP, since its inception in 2001 when 
the Under Secretaries for Benefits and Health executed a Memorandum of Agreement 
which established, staffed, and funded a joint initiative to improve C&P exams.
	The goal of improving compensation and pension exam quality fits hand in 
glove with the goal of reducing variation among the exams.  CPEP's strategy is 
to reduce variation by continuously improving quality.  Our goal is to ensure 
that VHA provides consistently high-quality exams.
	CPEP has adopted a pragmatic approach to quality improvement based on 
reliable and actionable baseline and ongoing performance data, accountability, 
and prioritization of effort.  We targeted the top ten most frequently requested 
exam types which account for approximately two-thirds of our workload.
	These exam types are General Medical, Joints, Spine, Foot, Skin, Mental 
Disorders, both the Initial and the Review PTSD, Audiology, and Eye.
	CPEP initially developed reliable and valid methodologies for measuring 
C&P exam quality based on the VBA Compensation and Pension Service's exam 
worksheets and the rating regulations and used these methodologies to measure 
baseline C&P exam quality.
	CPEP data were generated by a structured, standardized quality review 
process.  Our reviewers answered specific questions about each exam.  We refer 
to these specific questions as quality indicators.  An example of a quality 
indicator is, "does the exam describe noise exposure during military service?"
	Once an exam has been reviewed, we gave it a score, exactly like a test in 
school.  Exams that scored 90 percent or better were considered to be of "A" 
quality, just like in school.  And the more "A's," the better.  CPEP used 
quality indicators and the idea of "A" quality work to determine the baseline 
quality of VHA C&P exams.
	In the August 2003 VISN-level report, CPEP found that the baseline 
percentage of "A" quality exams for all VISNs was 53.5 percent with a range from 
46 to 67 percent.  This information was shared with the examining sites and 
VISNs as well as VHA and VBA leadership.
	In response to these results, CPEP, with the strong support of senior VHA 
and VBA leadership, implemented a number of quality improvement initiatives.  
These initiatives have, over time, contributed to a decrease in variation in VHA 
C&P exams and an improvement in quality.
	I would like to outline for you a number of the initiatives that VHA, 
CPEP, and the examining sites undertook to improve performance.
	CPEP began by taking steps to ensure that all sites were provided with the 
tools necessary for process improvement.
	All sites conducting C&P exams were required to participate in a 
"Collaborative Breakthrough Series" in which sites formed teams that were guided 
through a multi-month quality improvement exercise by subject matter experts and 
quality improvement coaches.  The CPEP Program was assisted in this effort by 
the VHA Quality Scholars Program.
	Each collaborative project included two two-day learning sessions 
separated by a six-month work period.  During the first learning session, the 
teams were taught how to improve the quality of their exams and how to develop 
specific action plans to implement improvements.
	In the six months between learning sessions, support was provided to 
participants through monthly conference calls, monthly coaching calls, and an 
electronic chat room.
	At the final learning session, the teams shared with each other specific 
strategies and the results of their efforts via presentations and posters.  The 
collaborative teams improved overall quality scores for each of the top ten 
exams and improved overall timeliness at the same time.
	To help sites strategically organize and prioritize their improvement 
initiatives, all VHA facilities performing C&P exams were required by senior 
management to submit a Facility Quality Improvement Plan using a CPEP template 
which was based on the principles and techniques they learned during the 
collaborative breakthrough series.
	Plans included mandatory sections regarding implementation of quality 
monitoring via CPEP quality indicators, clinician orientation and ongoing 
education, clinician feedback, organizational reporting, leadership and resource 
support.
	Facility QI plans required the approval and signature of the VISN 
Director, the Facility Director, and the Chief of Quality Management.  CPEP 
reviewed each plan and provided constructive feedback as appropriate.
	To further support the exam sites, CPEP developed and distributed videos 
and computer-based training to all VHA facilities on General Medical, 
Musculoskeletal, Foot, Heart, Diabetes, Skin/Scar, Muscle, and Respiratory 
exams.
	CPEP conducted video conferences on topics such as DeLuca v. Brown, exam 
templates, and quality measurement techniques.  We conducted face-to-face 
training sessions for quality improvement teams, clinicians, administrators, and 
template super users.  We have made these educational tools available to every 
site that conducts C&P exams.
	Finally, we coordinated a conference for VBA and VHA on "Improving the C&P 
Exam Process Together."
	CPEP is collaborating with the VHA Office of Information and the VBA C&P 
Service and Office of Field Operations to computerize all 57 disability 
worksheets in order to eliminate errors of omission via structured data entry.  
As of April 2005, an initial version of each of the templates have been 
installed at all exam facilities.
	Finally, VHA leadership has set higher goals for the quality of exams by 
establishing a performance target in the Network Directors' performance plans.  
For Fiscal Year 2004 and 2005, the performance measure targets were 64 percent 
of exams being of "A" quality to be fully successful and 75 percent to be 
exceptional.  In 2006, the proposed targets have been increased to 83 percent 
and 86 percent.
	In support of leadership's decision to establish performance targets, CPEP 
developed routine monthly reports on the quality of C&P exams utilizing the same 
structured quality review process that was developed for baseline review.
	This information has helped the VISNs and examining sites by providing 
immediate feedback on performance.  This information is used by the sites to 
identify specific areas needing improvement.
	The efforts I have just outlined have led to dramatic improvements in the 
quality of C&P exams.  Improvements of VHA C&P exam quality have increased over 
the last two years. Since CPEP began monthly monitoring in October of 2003, the 
national average performance measure score has improved.  The national average 
percentage of "A" quality exams for all VISNs was at 80 percent in June of 2005, 
an increase of 32 percent.
	The positive results noted in this testimony come as the result of a 
concerted effort at all levels of VA, including clinicians in the field, the 
CPEP staff, and VHA and VBA leadership.  Much has been accomplished and 
additional gains can be achieved.  We look forward to the opportunity to face 
these challenges.
	Mr. Chairman, this concludes my statement.  I am now available to answer 
any questions that you or other members of the Committee may have.  Thank you.
	MR. MILLER.  Thank you, Dr. Brown.
	[The statement of Dr. Brown appears on p. 86]
 
	MR. MILLER.  Mr. Aument, we will go to you and then we will ask questions.

STATEMENT OF RONALD R. AUMENT

	MR. AUMENT.  Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to review with you the issue of variance of VA disability 
compensation claims decisions.
	I am pleased to be accompanied by Ms. Renee Szybala, Director of VA's 
Compensation and Pension Service.
	In October 2001, the Secretary's Claims Processing Task Force delivered 
its report containing 34 recommendations to improve VA claims processing.
	The Task Force, which was chaired by Admiral Cooper, found that the most 
significant issue to be addressed was the need for greater accountability and 
consistency in our benefit delivery operations.
	Over the last three and a half years during Admiral Cooper's tenure as 
Under Secretary for Benefits, the Veterans' Benefits Administration has worked 
hard to address this need.
	Through the implementation of the Task Force recommendations, VBA has 
achieved major improvements in the delivery of benefits, including the quality 
of our benefits decisions, and we have laid the basic groundwork that will 
continue to bring more consistency in our decisions.
	We have made all regional offices consistent in organizational structure 
and work processes.  Specialized teams were established to reduce the number of 
tasks performed by decision makers and to incorporate a triage approach to 
incoming claims.
	We are also consolidating processes in certain types of claims to provide 
better and more consistent decisions.  We have established an aggressive and 
comprehensive program of quality assurance and oversight to assess compliance 
with VA policy and procedures and assure consistent application. Included are 
regular oversight reviews by Headquarters' staff.
	Training is also key to improving decision quality and consistency.  New 
hires receive comprehensive training through a national centralized program.  
Standardized computer-based tools have been developed for training decision-
makers and training letters and satellite broadcasts on the proper approach to 
rating complex issues have been provided to all field stations.
	Over the past year, new articles, particularly those of the "Knight-Ridder 
News Service'' and the "Chicago Sun Times,'' highlighted the existence of 
variations in the amount of annual compensation paid to veterans by state.  As a 
result, the IG was asked to review this issue.
	The IG did not identify a single causative factor to explain the variance 
in the amount of compensation paid among the different states.  Rather, the IG 
found a number of factors, including demographic factors, that directly 
contribute to compensation variances.
	The IG also identified PTSD, its prevalence and its evaluation, including 
the grant of individual unemployability ratings based on PTSD, as a major 
contributor to variability in compensation.
	The IG found insufficient evidence to support the grant of service 
connection for PTSD in some cases; thus, VA's decision to award benefits was 
premature.
	Where VA had not fully developed the cases and verified the stressors as 
required, the IG was not able to validate entitlement to the service-connection 
awards.
	VBA has agreed, because of the strong recommendation of the IG, to conduct 
a review of PTSD claims in which the veteran was awarded a 100 percent 
disability rating or IU rating in the past five years.  In that review, we 
expect that the majority of the claims will be found sufficient and will not 
require further development.
	We acknowledge and are concerned that there are variances across the 
system with respect to average annual benefit payments.  We do not, however, 
agree that average annual payments should be the singular measure by which we 
judge consistency.  Measurement of consistency is complex and cannot be 
discerned based upon a single measure of state-by-state comparisons of average 
disability payments.
	We will continue our efforts to better understand this complex and 
difficult issue and to identify and reduce inappropriate variability in our 
decisions.  Our objective is to ensure that all regional offices are generating 
consistently accurate decisions that provide the maximum benefits to which 
veterans are entitled.
	We believe that veterans should get the same treatment and same result 
based upon the same set of facts regardless of the state in which they reside or 
the regional office that decides the claim.  Our efforts are directed to that 
end.
	Mr. Chairman, this concludes my testimony.  I respectfully request that my 
complete written statement be included in the record.  I greatly appreciate 
being here today and look forward to answering your questions.
	MR. MILLER.  Thank you, sir.  Without objection, both of your statements 
will be placed in the record in full as well.
	[The statement of Mr. Aument appears on p. 91]
 
	MR. MILLER.  Dr. Brown, we will go back to you.  You had said that during 
the IG's review that a majority of the raters, I think, that were surveyed were 
unfamiliar with CPEP's template being used.
	What efforts are being done now to provide outreach to the regional 
offices to make sure that they are familiar with the templates?
	DR. BROWN.  The first thing that we are doing is we now have the templates 
rolled out.  And, of course, they had not seen it because at that time, we were 
just finishing getting the product into the field for the first version.  So it 
does not come as a terrible surprise that they had not seen the cases come by 
that were done using the templates.
	We also now have a group, the OFO, reviewing the template formats so that 
they also become more familiar and give us more feedback on how they want it 
structured.
	It really is an issue of they did not see it because it was just getting 
out there.
	MR. MILLER.  What is OFO, please?
	DR. BROWN.  I am sorry.  It is the Office of Field Operations within VBA.
	MR. MILLER.  But still my question is, what now is being done to ensure 
that they are familiar with the template?
	DR. BROWN.  We are working on the VHA side to increase use and use is 
increasing.  We are now up to about ten percent.  We do not have specific 
educational effort within VBA to see the reports that come out from the 
templates.
	We are working with the VHA.  We have a Clinical Advisory Board that is 
helping us get the word out about the templates as well as providing us with 
feedback to make them better..
	MR. MILLER.  Thank you.
	Ms. Berkley.
	MS. BERKLEY.  Is there a requirement that the doctors use the templates?  
They are being provided, but is there a requirement that the doctors actually 
use them?
	DR. BROWN.  There is no national mandate to do that.  My understanding is 
that in a couple of medical centers, that has gone forward.
	MS. BERKLEY.  In your experience, do medical examinations which follow a 
recommended format show more consistency than examinations that do not?
	DR. BROWN.  All of our examinations should be following the recommended 
format.
	MS. BERKLEY.  So there is a written format that the doctors use -- 
	DR. BROWN.  Yes.
	MS. BERKLEY. -- in evaluating patients?
	DR. BROWN.  Yeah.  Now the C&P Service maintains something called 
worksheets which are one- to three-page textual descriptions of what is expected 
of the doctors.
	MS. BERKLEY.  And how long do evaluators usually spend with PTSD, possible 
PTSD patients?
	DR. BROWN.  I do not have any data on what that would really be around the 
country.
	MS. BERKLEY.  But there is no consistency with that?  It could be 20 
minutes?  It could be two hours?  There is no  -- 
	DR. BROWN.  Again, I really do not have any data to say one way or the 
other.  I would be surprised if it were 20 minutes.  But, again, no data.
	MS. BERKLEY.  Well, from what I understand, best practices say that there 
should be a minimum of three to four hours before any determination is made.
	Between November of 2004 and March of 2005, the Board of Veterans' Appeals 
remanded almost 10,000 claims for problems involving medical examinations.
	Have you looked into any correlation between VISNs in which you found poor 
quality examinations and regional offices with large numbers of medical 
examination remands?  And I say that with Las Vegas being part of VISN 22 that 
has the fourth highest remand rate.
	DR. BROWN.  No.  We have not looked into a correlation between the matrix 
of exam quality and remand rate.
	And one important thing to keep in mind is that by the time it gets to 
remand, that would have taken a pretty long time.  So it could be a couple of 
years.  So we better have process measures that are a little bit more 
actionable.
	Also it is a filtered group that gets to remanded exams.  And, you know, 
there are folks who appeal.  It has gone through a number of filters by that 
time too.  So I think there are more direct ways to approach it.
	MS. BERKLEY.  Mr. Aument, if I may ask you.  It is my understanding that 
neither a disagreement as to the sufficiency of the evidence nor a change in 
diagnosis are adequate to support a determination of CUE.
	What legal authority does the VA have for requesting additional 
information from veterans whose claims for service connection have been finally 
decided?
	MR. AUMENT.  Congresswoman Berkley, before we even began planning for any 
sort of a review, one of the first steps we had taken was to seek guidance from 
our general counsel as to the legal authority for undertaking that type of 
review.
	The primary focus of this review is going to be looking at whether or not 
the evidence was sufficient, whether or not the required documentation was in 
place.
	The General Counsel informed us again that if we exhausted all efforts to 
make sure that documentation was available that could verify the stressor, then 
that could constitute a finding of clear and unmistakable error.
	I would defer right now saying I am not the attorney on this issue, but we 
did seek and obtain guidance from general counsel.
	MS. BERKLEY.  If they are not supposed to reopen cases that the Secretary 
has adjudicated final and there are four exceptions and none of these reasons 
fall into the exceptions, I realize you are not the legal authority -- 
	MR. AUMENT.  Right.
	MS. BERKLEY. -- but I am having trouble finding the legal authority to 
force veterans to provide this information.
	MR. AUMENT.  I think we just recently brought to the Committee the legal 
opinion that we obtained from general counsel on this.  I might turn to my 
colleague, Ms. Szybala, to amplify that somewhat, but indeed they have given us 
an opinion citing a legal authority.
	MS. BERKLEY.  One final question.  Are you aware of any assessment made by 
the VA as to the risk of increased suicides as a result of the current and 
proposed review?
	MR. AUMENT.  I am aware of no such assessment, no.
	The event that we have just discussed today in New Mexico certainly was 
tragic.  And I know my heart goes out to the veteran's family and friends on 
this.  But, again, this veteran, as Mr. Garcia mentioned, was not, in fact, 
contacted by us.
	The one thing that I think this has brought to our attention is that 
before we would undertake any larger review, we probably need to do a better job 
of outreach to individuals, informing them of the facts and what the review 
consists of, who would be subjected to review, and what it would mean to 
individuals.
	I am afraid much of the information that has gone out to date has been a 
combination of fact and opinion.  And at the same time, we realize we need to do 
a better job.
	We have recently had conversations with the Veterans' Health 
Administration, including the leadership of the Vet Center Program.  And I think 
that before undertaking any further review, we would try to put the information 
out that would help assuage any concerns that veterans might have.
	MS. BERKLEY.  I appreciate your sensitivity to this because I think it is 
a potential -- 
	MR. AUMENT.  Yes.
	MS. BERKLEY. -- tragic problem.  And I would hope that they would stop at 
2,100 and move forward and not condemn our veterans to any more stress than they 
have already had.  Thank you.
	MR. MILLER.  Mr. Udall, any other questions?
	MR. UDALL.  Thank you, Mr. Chairman.
	Mr. Aument, it appears that in your review of these cases that you have 
come up with this figure 90 percent have an adequate stressor and then the IG 
has come up with 75 percent had an adequate stressor in the file, which is a 
significant variance or significant discrepancy.
	How do you explain this discrepancy?  Do you think the IG is just flat 
wrong or -- 
	MR. AUMENT.  Well, Congressman, we have not really completed our review.  
When we did our first cut, looking at the 2,100 cases that the Inspector General 
had reviewed, we pretty much substantiated the Inspector General's findings by 
looking strictly at the ratings.  And we found that roughly 25 percent of the 
cases we looked at had stressor deficiencies.
	Since going back to the individual regional offices for the next steps and 
further development, we have eliminated a number of those cases from further 
review for a number of reasons.
	For example, we have found in roughly 20 to 25 percent of the cases that 
the Inspector General looked at, the ratings were protected, which means that 
the time period between today and the day in which they received their 
determination of service connection was of sufficient duration that this case 
was no longer subject to any review.
So those cases were immediately closed.
	We found in a number of other cases that the file itself contained missing 
evidence, but it was just not reflected in the rating decision.  So that 
particular group of cases was closed.
	It is my guess that we are going to find something closer to the 90 
percent figure that we have spoken of, but we are not there yet because the 
review has not yet been completed.
	MR. UDALL.  And do you plan to review all 72,000 cases?
	MR. AUMENT.  Well, as it stands right now, we are acting in accordance 
with the Inspector General's very strong recommendations.
	The IG brought to  our attention failure on the part of the Veterans' 
Benefits Administration to adequately support these cases where we have already 
made grants of service connection.
	As administrators of this particular program, and in the interest of the 
program integrity, we need to move forward until somebody tells us to stop.
	MR. UDALL.  When would that be?
	MR. AUMENT.  Well, I understand that the Congress is looking at it very 
closely, number one.  And I think we have already heard the Inspector General 
today suggest that they would revisit that decision if, after completion of our 
review of the 2,100 cases, they believe that would change their recommendation.
	MR. UDALL.  And you are right about the Congress moving forward.  There is 
a provision in one of the bills in the Senate prohibiting you from moving 
forward.
	I would hope that the administration would step out in this situation and 
say we have reviewed the 2,100.  That is enough.  Let us stop the review and let 
us deal with the future situation.
	So you did not answer the question.  Do you have the authority to say I am 
only going to look at the 2,100 or does it go up to the next level?
	MR. AUMENT.  I believe that would be a decision that would be made 
collectively by the leadership of VA.  Sitting at this table today, I do not 
have the authority to say that we are going to stop that review.
	MR. UDALL.  This is just my personal view.  I would just urge you to take 
a very hard look at what you have seen today and what you have done in the 
review of the 2,100.   
	You realize you are dealing with a very, very sensitive situation.  These 
veterans and the other ones that are not included in the 2,100, all of them at 
this point, I think, have been alerted and they are under extreme psychological 
stress anyway.
	So I think it is the right thing to do to terminate it with the 2,100 and 
then move forward with new procedures if you believe that is warranted based on 
the 2,100, but to not subject these veterans to that.  So I hope you take that 
message back.
	In light of this sensitive situation, when you decided to go out and have 
these regional offices ask veterans to document their stressors and to step 
forward, did you consult psychiatrists, psychologists, people within your agency 
about how to properly do this and how to do it in a way that would lessen the 
impact on not only those veterans personally but the other veterans that are 
being swept in here, the 72,000?
	MR. AUMENT.  I do not believe that we did perceive the widespread breadth 
of interest that you have just described, Congressman.
	Let me say again with respect to the Albuquerque regional office, acting 
in very good faith, I believe they got ahead of the program somewhat and wrote 
letters on their own prior to being given complete guidance that later followed 
from our Compensation and Pension Service.  We believe that the communications, 
the letters, formats, etc. that were provided by C&P Service are much more 
sensitized to these types of concerns.
	So I think that there were a number of letters that came out of the 
Albuquerque office that probably unduly alarmed the veterans upon their receipt.
	And, as part of the learning process, learning as we go, I believe, is one 
of the reasons why we are undertaking this 2,100 case review before moving on to 
any larger group.
	MR. UDALL.  Thank you.
	And thank you, Mr. Chairman.
	MR. MILLER.  Thank you very much for everybody's testimony today.
	I would like to enter into the record a memo from General Counsel 022 to 
the Under Secretary for Benefits, subject:  Review of Awards of Total Disability 
Rating for PTSD.
	[The attachment appears on p. 153]
 
	MR. MILLER.  There is no doubt that we all play a large role in assuring 
the claims adjudication process from beginning to end serves our core 
constituency with accurate rating decisions.
	This Subcommittee expects to see VBA and VHA work very closely together 
because we often hear the term "one VA."  But sometimes when we get out in the 
field, that is not exactly what is taking place.
	We owe it to the sick, to the disabled veterans to not just provide them 
with a check, but rather we must make certain the VBA works with VHA to treat 
the veteran so he or she may live their life to their fullest potential.
	I have concerns not about the quality of staff of VBA's regional offices, 
but they may not have the resources and the training necessary to achieve the 
mission that they have been tasked with.  We will explore this more fully at 
next week's Subcommittee hearing.
	Without objection, the statements from the following organizations will be 
entered into the record:  The American Legion; the Disabled American Veterans; 
Paralyzed Veterans of America; and Veterans of Foreign Wars.
	[The statement from the American Legion appears on p. 101]
	[The statement from the Disabled American Veterans appears on p. 112]
	[The statement of the Paralyzed Veterans of America appears on p. 122]
	[The statement of the Veterans of Foreign Wars of the United States 
appears on p. 132]

	MR. MILLER.  And with nothing further, this hearing is now adjourned.
	[Whereupon, at 1:50 p.m., the Subcommittee was adjourned.]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
